<html>
<title> - HOW RELIABILITY OF THE INLAND WATERWAY SYSTEM IMPACTS ECONOMIC COMPETITIVENESS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
                         HOW RELIABILITY OF THE
                     INLAND WATERWAY SYSTEM IMPACTS
                        ECONOMIC COMPETITIVENESS

=======================================================================

                                (112-82)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    WATER RESOURCES AND ENVIRONMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 18, 2012

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation



                  U.S. GOVERNMENT PRINTING OFFICE
73-826                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6403140b24071117100c0108144a070b094a">[email&#160;protected]</a>  


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                    JOHN L. MICA, Florida, Chairman

DON YOUNG, Alaska                    NICK J. RAHALL II, West Virginia
THOMAS E. PETRI, Wisconsin           PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
FRANK A. LoBIONDO, New Jersey        Columbia
GARY G. MILLER, California           JERROLD NADLER, New York
TIMOTHY V. JOHNSON, Illinois         CORRINE BROWN, Florida
SAM GRAVES, Missouri                 BOB FILNER, California
BILL SHUSTER, Pennsylvania           EDDIE BERNICE JOHNSON, Texas
SHELLEY MOORE CAPITO, West Virginia  ELIJAH E. CUMMINGS, Maryland
JEAN SCHMIDT, Ohio                   LEONARD L. BOSWELL, Iowa
CANDICE S. MILLER, Michigan          TIM HOLDEN, Pennsylvania
DUNCAN HUNTER, California            RICK LARSEN, Washington
ANDY HARRIS, Maryland                MICHAEL E. CAPUANO, Massachusetts
ERIC A. ``RICK'' CRAWFORD, Arkansas  TIMOTHY H. BISHOP, New York
JAIME HERRERA BEUTLER, Washington    MICHAEL H. MICHAUD, Maine
FRANK C. GUINTA, New Hampshire       RUSS CARNAHAN, Missouri
RANDY HULTGREN, Illinois             GRACE F. NAPOLITANO, California
LOU BARLETTA, Pennsylvania           DANIEL LIPINSKI, Illinois
CHIP CRAVAACK, Minnesota             MAZIE K. HIRONO, Hawaii
BLAKE FARENTHOLD, Texas              JASON ALTMIRE, Pennsylvania
LARRY BUCSHON, Indiana               TIMOTHY J. WALZ, Minnesota
BILLY LONG, Missouri                 HEATH SHULER, North Carolina
BOB GIBBS, Ohio                      STEVE COHEN, Tennessee
PATRICK MEEHAN, Pennsylvania         LAURA RICHARDSON, California
RICHARD L. HANNA, New York           ALBIO SIRES, New Jersey
JEFFREY M. LANDRY, Louisiana         DONNA F. EDWARDS, Maryland
STEVE SOUTHERLAND II, Florida
JEFF DENHAM, California
JAMES LANKFORD, Oklahoma
REID J. RIBBLE, Wisconsin
CHARLES J. ``CHUCK'' FLEISCHMANN, 
Tennessee

                                  (ii)

  
?

            Subcommittee on Water Resources and Environment

                       BOB GIBBS, Ohio, Chairman

DON YOUNG, Alaska                    TIMOTHY H. BISHOP, New York
JOHN J. DUNCAN, Jr., Tennessee       JERRY F. COSTELLO, Illinois
GARY G. MILLER, California           ELEANOR HOLMES NORTON, District of 
TIMOTHY V. JOHNSON, Illinois         Columbia
BILL SHUSTER, Pennsylvania           RUSS CARNAHAN, Missouri
SHELLEY MOORE CAPITO, West Virginia  DONNA F. EDWARDS, Maryland
CANDICE S. MILLER, Michigan          CORRINE BROWN, Florida
DUNCAN HUNTER, California            BOB FILNER, California
ANDY HARRIS, Maryland                EDDIE BERNICE JOHNSON, Texas
ERIC A. ``RICK'' CRAWFORD, Arkansas  MICHAEL E. CAPUANO, Massachusetts
JAIME HERRERA BEUTLER, Washington,   GRACE F. NAPOLITANO, California
Vice Chair                           JASON ALTMIRE, Pennsylvania
CHIP CRAVAACK, Minnesota             STEVE COHEN, Tennessee
LARRY BUCSHON, Indiana               LAURA RICHARDSON, California
JEFFREY M. LANDRY, Louisiana         MAZIE K. HIRONO, Hawaii
JEFF DENHAM, California              NICK J. RAHALL II, West Virginia
JAMES LANKFORD, Oklahoma               (Ex Officio)
REID J. RIBBLE, Wisconsin
JOHN L. MICA, Florida (Ex Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Major General John W. Peabody, P.E., Commander, Mississippi 
  Valley Division, United States Army Corps of Engineers.........     8
Mark Knoy, President and CEO, American Commercial Lines and 
  Jeffboat.......................................................     8
Martin Hettel, Senior Manager, Bulk Sales, American Electric 
  Power, River Operations........................................     8
Robert C. Dolence, Vice President, Leonardo Technologies, Inc....     8
Mike Steenhoek, Executive Director, Soy Transportation Coalition.     8
Kristin Meira, Executive Director, Pacific Northwest Waterways 
  Association....................................................     8
James A. Rossberg, Managing Director, Engineering Programs, 
  American Society of Civil Engineers............................     8

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Hon. Russ Carnahan, of Missouri..................................    40

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Major General John W. Peabody, P.E...............................    44
Mark Knoy........................................................    49
Martin Hettel....................................................    52
Robert C. Dolence................................................    58
Mike Steenhoek...................................................    68
Kristin Meira....................................................    73
James A. Rossberg................................................    77

[GRAPHIC] [TIFF OMITTED] T3826.001

[GRAPHIC] [TIFF OMITTED] T3826.002

[GRAPHIC] [TIFF OMITTED] T3826.003

[GRAPHIC] [TIFF OMITTED] T3826.004

[GRAPHIC] [TIFF OMITTED] T3826.005

[GRAPHIC] [TIFF OMITTED] T3826.006

[GRAPHIC] [TIFF OMITTED] T3826.007



                         HOW RELIABILITY OF THE
                     INLAND WATERWAY SYSTEM IMPACTS
                        ECONOMIC COMPETITIVENESS

                              ----------                              


                       WEDNESDAY, APRIL 18, 2012

                  House of Representatives,
                    Subcommittee on Water Resources
                                   and Environment,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:07 a.m. in 
Room 2167, Rayburn House Office Building, Hon. Bob Gibbs 
(Chairman of the subcommittee) presiding.
    Mr. Gibbs. Good morning. This hearing for the Water 
Resources and Environment Subcommittee of the Committee on 
Transportation and Infrastructure will come to order.
    I want to welcome everybody today. In this committee 
hearing we are dealing with how reliability of the inland 
waterways system impacts economic competitiveness.
    I will start here with my opening statement, and we will 
turn it over to Ranking Member Bishop.
    Again, welcome. Transportation savings are a key factor in 
economic growth. As fuel prices continue to escalate, waterways 
transportation becomes an even more viable alternative for 
shippers, but an unreliable transportation system will inject 
uncertainty into decisions made by U.S. farmers and 
manufacturers, making U.S. products more uncompetitive in world 
markets.
    While the Nation supports our rightfully called ``Nation's 
gateways,'' the inland navigation system provides access to 
foreign export markets for manufacturers and commodity 
producers.
    Water transportation is the most fuel efficient, least 
polluting, safest and least expensive means of moving cargo.
    In addition, waterways provide freight mobility for 
products that are too large to move by any other means.
    There are also some industries located on a river that are 
completely dependent on the inland waterways system to bring in 
the raw materials to their facilities.
    Trade, especially global trade, is increasing. That means 
the need for transportation services will continue to grow and 
grow rapidly.
    The question is not whether it will be rail or truck or 
boats, the question is whether or not we can produce an 
efficient integrated network of airports, railroads, highways, 
waterways and ports, that can respond to a changing world 
economy.
    When we are trying to run this mode for a national 
integrated transportation system with infrastructure that was 
largely built before World War II, we do not do that for roads, 
rail or aviation.
    While there is room for improvement in those sectors as 
well, in general, we have modernized in those areas and our 
economy has benefitted from those investments.
    When it comes to the inland waterways system, we have been 
investing too slowly for too long.
    Fifty-seven percent of our inland system is more than 50 
years old, and 37 percent of that system is more than 70 years 
old. It is literally falling apart and we are falling behind.
    Navigation outages along the system are increasing. For 
instance, the high river outages have increased from 25,000 
hours in 2000 to 80,000 hours today.
    This trend of increasing outages is expected to continue, 
while it affects the reliability of the system, it also 
foretells the likelihood of a major physical failure at one of 
the structures.
    Without some rehabilitation and rebuilding, we can expect 
to pay more each year for an increasingly unreliable system.
    The Corps of Engineers is charged with maintaining and 
improving the inland waterways system with the authorities and 
the funding provided by Congress each year.
    For decades, the Corps had made to do with constrained 
funding, leaving the Commanders with no choice but to defer 
some maintenance projects and reduce operations at some of the 
locks.
    I am concerned that if the Corps reduces the efficiency of 
some parts of the system, other segments are adversely 
affected.
    If this cycle is not broken, we are going to lose water 
transport as a viable part of our intermodal transportation 
system, completely diverting cargo from water to rail that 
would require hundreds of thousands of additional railroad cars 
and an additional 2,500 locomotives.
    If the cargo that is currently moved by the waterways had 
to move by truck, it would require an additional 58 million 
trucks moving on already congested highways annually.
    After Hurricane Katrina, it became obvious that the warning 
signs were there all along, but many experts have been telling 
us for years that conditions were ripe in the New Orleans area 
for a disaster.
    Today, we are getting a similar warning on the Nation's 
inland waterways system of transportation.
    Finding alternative ways to move cargo will be expensive if 
not impossible. If transportation costs go up, the 
competitiveness of American products in the world market goes 
down.
    I would just add I think some of our competitors in the 
world markets are making those investments and putting us at a 
disadvantage and uncompetitiveness that will cost us in the 
long run.
    Addressing the infrastructure needs of the inland waterways 
system is not about economic benefits to a few barge companies, 
it is about keeping American farms, manufacturers and 
businesses competitive and growing American jobs.
    Letting the inland waterways system decline further would 
be an economic disaster to add to the Nation's already 
significant fiscal problems.
    Having an inland waterways system that is a viable 
alternative will keep costs down among all modes of 
transportation. If you take inland waterways out of the mix of 
transportation, in terms of transportation options, costs will 
go up, American products will become less competitive in the 
global marketplace, and that means lost jobs.
    That is why I can say I am a fiscal conservative and I 
support investing in America where those expenditures stoke the 
fires of our economic engines and create jobs throughout our 
economy.
    For a tiny percentage of the $1 trillion failed stimulus 
program in 2009 or the $450 billion jobs program recently 
suggested by the administration, we could spend that $8 billion 
necessary to recapitalize the inland waterways system, to 
finish the projects under construction and begin and finish the 
slate of authorized projects.
    Given our economic conditions, I know that coming up with 
additional public money is going to be a huge challenge.
    I think it makes sense to explore financing options. The 
administration has suggested a new lockage fee and the Inland 
Waterways Users Board has developed a comprehensive plan of 
increased user fees and changes to the current cost sharing 
arrangement.
    While these ideas deserve more consideration, I think it is 
time to think further outside the box and consider enhanced 
public-private partnerships.
    A significant part of project delays has come from project 
funds being parceled out to the Corps of Engineers in small 
amounts that drag the project out over many years than 
necessary.
    Perhaps a private investor could supply all the funds 
needed upfront and pay back over an extended period of time. I 
think this is a possible paradigm worth exploring.
    I welcome our witnesses today and look forward to hearing 
from you. At this time, I will yield to my ranking member, Mr. 
Bishop, for any comments you may have.
    Mr. Bishop. Thank you very much, Mr. Chairman. I appreciate 
you holding yet another hearing on the declining state of our 
Nation's infrastructure.
    Today's hearing reinforces what most of our constituents 
already know, that America's system of infrastructure is 
crumbling and that consequences that result from infrastructure 
congestion, unreliability and failure are widespread and impact 
all sectors of the economy.
    This morning we will hold our second hearing on the long-
term challenges facing the movement of goods and services along 
our Nation's inland waterways system.
    As one witness from our last hearing said on this issue: 
``The inland waterways system is one of this country's greatest 
assets that has allowed the low-cost movement of large bulk 
commodities in an efficient and timely manner.''
    Yet as the chairman also noted at our last hearing, our 
water resources infrastructure, especially our inland waterways 
system, is falling apart faster than we can fix it. I agree.
    In my view, we are underinvesting in our Nation's critical 
infrastructure systems, including our highways, mass transit, 
sewers, and other water related infrastructure, as well as the 
projects carried out by the Corps of Engineers.
    What I cannot seem to rectify are statements in strong 
support of the benefits that come from sustaining the projects 
and activities of the Corps while Members vote time and again 
to slash funding for these very same projects and activities.
    The rhetoric does not match up with the actions, and this 
is troubling.
    In my view, our infrastructure will only be as good as our 
willingness to pay for it. If we want a world-class 
infrastructure network, then we need to support the resources 
necessary to pay for it.
    Unfortunately, in recent months, we have seen a concerted 
effort by some in Congress to go in the opposite direction, 
which in my view would hasten the reality that we warn against 
today.
    Over the past year, this chamber has insisted on massive 
cuts to the appropriations of the U.S. Army Corps of Engineers, 
the Federal agency responsible for the construction and 
maintenance of much of the Nation's water related 
infrastructure.
    For example, over the past two appropriations periods, the 
Republican led House has recommended cuts of close to 25 
percent from the Corps' construction account, which is the 
principal account responsible for moving forward the major 
construction and rehabilitation projects along the inland 
system.
    Similarly, the House has voted in support of significant 
cuts to the Corps' operation and maintenance accounts, that 
according to our witnesses' testimonies have strained the 
ability of the Corps to keep our existing water related 
infrastructure up and running.
    Unfortunately, these cuts mark only the beginning of the 
Republican leadership's long-term plan for the Corps. The long-
term plan for the Corps is what is displayed before you on 
these screens.
    Under the Republican House budget, approved just before the 
Spring District work period, and for which every Republican of 
this committee save one, Representative Duncan of Tennessee, 
voted for, we can expect to see significant sustained cuts to 
the Corps' budget over the next 5 years to the point where 
total appropriations for the Corps may dip below $4 billion 
within the next 2 fiscal years.
    That would represent more than a 25-percent reduction to 
the total Corps' appropriations over 5 years, not counting for 
inflation.
    With all due respect to the witnesses, I hope someone can 
explain to me how we can even expect to maintain the adequacy 
of the inland system, let alone make recommended improvements 
with forecast reductions of over 25 percent of the Corps' 
construction operation and maintenance activities.
    Later this morning, the Corps will highlight difficulties 
in maintaining the current system with diminishing funds, and 
how it must continuously defer necessary maintenance and 
rehabilitation to some future date.
    My fear is that by knowingly providing the Corps with fewer 
resources than its current portfolio of projects requires, we 
are only increasing the likelihood that a major failure on the 
inland system will occur.
    We have been warned. If the Ryan budget is maintained, in 
my view, we will have chosen to ignore these warnings.
    In my view, it is irresponsible for Congress to expect our 
Nation's infrastructure to keep pace with all that our modern 
economy requires when we do not provide the resources necessary 
to even properly maintain these critical assets.
    Similarly, it is irresponsible for this committee to 
continue to ignore the calls of stakeholders, Republican and 
Democratic administrations, and others to address issues 
surrounding the Inland Waterways Trust Fund that currently 
provides half of the cost of construction and major 
rehabilitation for projects in the inland system.
    We all know that the greatest limiting factor for 
additional capital investment in the inland waterways system is 
the availability of funds in the Inland Waterways Trust Fund.
    There was almost uniform agreement at our last hearing that 
the current structure is broken and in need of attention.
    To date, we have been presented with an array of potential 
alternatives, ranging from the lockage fees proposed by both 
the Bush and Obama administrations, the proposal to generate 
additional revenues that was included as part of President 
Obama's jobs bill last Fall, and the capital development plan 
recommended by the Inland Waterways Users Board.
    We have seen the offer of the administration to work with 
Congress to resolve this issue and the recognition from other 
committees that it is our responsibility to come up with a 
solution to this challenge.
    Now is the time for this committee to roll up its sleeves 
and work through these proposals and others to address the 
long-term needs of the inland waterways system.
    To that end, I have requested, as you know, Mr. Chairman, 
that we jointly hold a working roundtable to start moving this 
process forward.
    I am hopeful that each of the witnesses here this morning 
as well as other stakeholders be asked to begin such an effort 
in the very near future.
    This issue and the long-term needs of our entire water 
related infrastructure systems are far too important to delay 
any further.
    Thank you very much, Mr. Chairman. I yield back.
    Mr. Gibbs. At this time, before I introduce the witnesses, 
I want to recognize Congressman Todd Young from Indiana for 
special privilege. Go ahead.
    Mr. Young. Thank you, Chairman Gibbs and Ranking Member 
Bishop. I applaud the committee for convening this very timely 
and critical hearing on the reliability of the inland waterways 
system, and how it impacts our economic competitiveness.
    As a Representative of one of the major inland waterways 
port cities, Jeffersonville, Indiana, I am dedicated to seeing 
that our Nation's inland waterways remain a commercial super 
highway capable of moving products to producers and goods to 
consumers.
    I am deeply thankful and honored as all my colleagues are 
to have Mark Knoy, a constituent, and president and CEO of 
American Commercial Lines, here today to testify and share his 
expertise on the economic impact of the inland waterways.
    As the son of a river boat captain, Mark grew up with 
firsthand knowledge of the waterways system. He worked his way 
from deck hand to pilot and eventually started his own fleeting 
business with his father.
    Before joining American Commercial Lines, he was vice 
president at American Electric Power Fuel Emissions and 
Logistics Group, and president of AEP River Operations.
    Among other responsibilities, he currently serves as 
director of the Corps of Engineers' Inland Waterways Users 
Board, and vice chairman of National Waterways Foundation, and 
is former chairman of both the Waterways Council in the Midwest 
Region of the American Waterways Operators.
    ACL is one of the Nation's largest and most successful 
marine transportation and manufacturing companies, and I am 
proud they have made Jeffersonville, Indiana, home.
    ACL is an industry leader in efficiency, safety, and 
innovation, and I look forward to hearing Mark's insight into 
the industry's most pressing challenges, as well as potential 
reform proposals.
    I thank the chairman and I yield back.
    Mr. Gibbs. Thank you. At this time, I want to recognize the 
ranking member of the full Transportation Committee, Mr. 
Rahall.
    Mr. Rahall. Thank you, Mr. Chairman. I just very briefly 
want to commend you for calling today's hearing. I think this 
is a very critical issue for our Nation, not only are our 
inland waterways' operators responsible for number one, 
providing jobs for our people, but they are certainly important 
for this Nation's national security and safety.
    You are important as far as moving goods, especially the 
coal that is so well produced in my part of the country, and 
moving that coal to its markets, both domestically and 
worldwide.
    I commend you, Mr. Chairman. I also by way of passing note 
bipartisan legislation that has been introduced and I believe 
pending before this body, which is H.R. 4342, which has a wide 
range of supporters, both from the labor community, from the 
business community, and from the environmental community.
    That legislation is called ``The Inland Waterways Capital 
Development Plan.''
    I say that because I believe we could bipartisanly address 
the critical issues facing our inland waterways' operators.
    Thank you, Mr. Chairman.
    Mr. Gibbs. Thank you. At this time, I want to introduce our 
witnesses.
    Our first witness is Major General John Peabody, 
Mississippi River Valley Division, United States Army Corps of 
Engineers.
    I do want to congratulate him in his new position. He moved 
from Great Lakes to the whole Mississippi Basin.
    Mr. Knoy was just introduced by his congressman.
    Mr. Martin Hettel is senior manager, American Electric 
Power River Operations.
    Mr. Robert Dolence, vice president, Leonardo Technologies.
    Mr. Mike Steenhoek, executive director of the Soy 
Transportation Coalition.
    Ms. Kristin Meira, executive director, Pacific Northwest 
Waterways Association, and Mr. James Rossberg, managing 
director of engineering programs of ASCE, Association of Civil 
Engineers.
    I have just been informed we have some more statements, so 
we will get back to you in a minute, General Peabody, in a 
second.
    Mr. Carnahan, go ahead. The floor is yours.
    Mr. Carnahan. Thank you, Mr. Chairman. I want to welcome 
the panel and really thank the chairman and ranking members 
from our side for being here, for their leadership on this 
issue. I am going to ask unanimous consent to submit my full 
opening statement for the record.
    Just to say briefly how important this is for our country, 
for our economy, for jobs, particularly for cities like St. 
Louis that I represent. This is a big deal.
    This river system, this inland waterways system, really 
connects our country together in ways that are vital for our 
economy.
    This is a win-win. Too many times the different modes of 
transportation get into this competition. This is a way, I 
think, for all those modes to look at how they can work 
together to really create a functioning, modern intermodal 
system in this country that is going to help all modes of 
transportation.
    That is why I am especially proud to be an original co-
sponsor of H.R. 4342, and all the groups that have come 
together behind that to actually get some of these things done.
    I appreciate the way this coalition has stepped up to the 
plate, and we welcome you all here today.
    Mr. Gibbs. Ms. Johnson? Go ahead.
    Ms. Johnson of Texas. Thank you very much Mr. Chairman and 
Ranking Member Bishop for holding this hearing, as it is 
critical that we maintain and improve our inland waterways 
system.
    Failing to maintain these waterways will stifle trade and 
curtail economic competitiveness.
    Having served both as ranking member and chair of this 
subcommittee, I am fully aware of how important it is to the 
country and most especially to my State.
    Inland waterways are a significant component of our 
Nation's marine transportation system, and in Texas, trade and 
the ability to move goods is the life blood of our economy.
    Texas has more than 1,000 miles of channel maintained by 
the Corps of Engineers, which I highly appreciate, and Texas 
ports create nearly 1 million jobs.
    The maritime industry represents over $135 billion in 
economic value to my State.
    If our inland waterways system is not maintained, that 
means loss of trade opportunities, delay in movement of 
commodities, and the potential to lose thousands of jobs.
    I am realistic about the current weakness in our economy 
and the difficult fiscal climate, but without these adequate 
funds for these waterways, we are doing far more harm to 
American economic competitiveness.
    I welcome the opportunity that this hearing brings to 
advance solutions to address the insolvency of the Inland 
Waterways Trust Fund.
    Without an adequate maritime transportation system, the 
U.S. will lose its competitive edge in this global economy.
    Thank you and I yield back.
    Mr. Gibbs. Thank you. General Peabody, welcome.
    The floor is yours.

 TESTIMONY OF MAJOR GENERAL JOHN W. PEABODY, P.E., COMMANDER, 
   MISSISSIPPI VALLEY DIVISION, UNITED STATES ARMY CORPS OF 
 ENGINEERS; MARK KNOY, PRESIDENT AND CEO, AMERICAN COMMERCIAL 
LINES AND JEFFBOAT; MARTIN HETTEL, SENIOR MANAGER, BULK SALES, 
 AMERICAN ELECTRIC POWER, RIVER OPERATIONS; ROBERT C. DOLENCE, 
 VICE PRESIDENT, LEONARDO TECHNOLOGIES, INC.; MIKE STEENHOEK, 
   EXECUTIVE DIRECTOR, SOY TRANSPORTATION COALITION; KRISTIN 
    MEIRA, EXECUTIVE DIRECTOR, PACIFIC NORTHWEST WATERWAYS 
    ASSOCIATION; AND JAMES A. ROSSBERG, MANAGING DIRECTOR, 
   ENGINEERING PROGRAMS, AMERICAN SOCIETY OF CIVIL ENGINEERS

    General Peabody. Thank you, Mr. Chairman, Mr. Bishop, and 
distinguished members of the subcommittee.
    It is an honor for me to testify before you today on the 
inland waterways operated and maintained by the Corps of 
Engineers and the thousands of professionals charged with 
making these systems work.
    I currently command the Mississippi Valley Division but my 
previous job, as you alluded to, Mr. Chairman, was in command 
of the Great Lakes and Ohio River Division, where I also 
developed intimate familiarity with the challenges of this 
issue.
    The Corps of Engineers facilitates commercial navigation by 
providing safe, reliable, cost-effective and environmentally 
sustainable waterborne transportation systems.
    On the inland waterways, the Corps constructs, operates and 
maintains, rehabilitates and recapitalizes locks, dams, levees, 
floodways, and many other project features that enable vessels 
to transport cargo along 12,000 miles of waterways.
    This system includes 221 operable lock chambers and 
associated dams at 178 active sites. About 9,000 miles of these 
waterways are within the greater Mississippi River Basin.
    The Mississippi watershed is the largest naturally 
navigable river system in the world. Thanks to well over a 
century of investments by the Nation, the Corps has engineered 
structures throughout this watershed that resulted in a 
navigable network of interior waterways that in combination 
with the coastal system is longer than the navigable systems in 
the rest of the world combined.
    The watershed drains a vast area, including one of the 
world's largest contiguous areas of productive farmland and 
major sources of underground mineral and energy wealth.
    This gives the U.S. a unique economic advantage in enabling 
the inexpensive movement of goods from its interior to the gulf 
coast for export and internally to the United States for 
domestic consumption and industrial production as well.
    I draw your attention to one example of hundreds that we 
could provide of photos of the crumbling infrastructure that 
has already been mentioned. I keep on my desk two examples as a 
daily reminder to me of this challenge.
    This right here is a hunk of concrete I picked up at 
Allegheny 2 3 years ago when I visited that project.
    This is difficult to see, but the nut on your right is a 
greatly deteriorated nut that was taken as part of routine 
maintenance off the Calcasieu system in Louisiana.
    The nut on your left is what it is supposed to look like.
    However, this competitive advantage is threatened by the 
aging of America's infrastructure which will require major 
investment or perhaps divestment, to sustain its reliability.
    Our prior success in building engineered infrastructure 
taught Americans to expect that this infrastructure has always 
been, and will always be, there for us. But like everything 
built by man, infrastructure has limits. It must be properly 
maintained to ensure and extend its useful life. It must be 
periodically rehabilitated when it begins to wear out and 
deteriorate. When no longer viable to rehabilitate or 
economical to maintain, it either must be recapitalized, 
repurposed, or removed.
    The Corps' portfolio of locks and dams has an average age 
of 60 years. These structures have performed well but many of 
them are showing obvious signs of wear and tear.
    I draw your attention to the video here. What you are 
seeing is the collapse of a wall along the pool just above the 
Lockport Lock and Dam, in the Upper Illinois system. That was 
an 1890s vintage concrete wall that sloughed off while we were 
rehabilitating the project.
    This was not built by the Corps. It was inherited by the 
Corps, I think, in the 1970s or 1980s.
    In a select few cases, the condition of a project has 
deteriorated to a point that catastrophic failure is a real 
possibility, not a high probability, but a real possibility.
    In all such cases with which I am familiar, there is an 
active construction project to replace or remediate the issue.
    The Corps' ability to recapitalize this system, however, is 
limited by the Inland Waterways Trust Fund constraints on 
construction, most of which goes to the Olmsted Project in 
recent years.
    To avoid possible catastrophic failures, the Corps has 
stepped up monitoring the system's condition via periodic 
inspections and increased scheduled maintenance, but the 
general reliability of the system is declining as unscheduled 
lock outages have doubled in the last decade.
    On the screen now is one of the sources of possible 
failure. It is not just the crumbling infrastructure but from 
time to time, there are operational challenges with the 
navigation industry. This is a barge that struck the dam gates 
on Lock and Dam 25 that necessitated a shutdown and significant 
expenditures to repair it.
    Other indicators also tell us that this trend is 
increasing, this trend of declining reliability.
    For the last decade, the Corps has been actively pursuing 
several initiatives to address this challenge to include 
increased efforts to document project conditions and prioritize 
resources, efficiency initiatives to reduce equipment, cut 
excess operations capacity, regionalize assets across multiple 
districts, and other efforts.
    We also studied lock and dam construction projects which 
revealed some issues for improved construction management, and 
recently the Corps partnered with the inland waterways 
navigation industry to develop ideas for a long-term approach 
to recapitalizing infrastructure. The report identified several 
ways to strengthen our project delivery processes, and we have 
incorporated many of its recommendations.
    The Corps is also embarking on a Civil Works transformation 
effort as part of a strategic plan to knit together these and 
other efforts. The desired effect will be more effective and 
efficient processes to deliver Corps' projects and manage them 
with maximum efficiency.
    Current revenue trends, however, makes sustaining our full 
infrastructure portfolio unaffordable. We have made, and will 
continue to make, hard choices and tradeoffs about prioritizing 
resources to deliver the greatest return for the money 
available. These tradeoffs include such things as reducing 
hours of operations at some of our lower use locks. Without 
additional funding or revenue sources, we may be forced to put 
some projects in caretaker status in future years.
    Mr. Chairman, I conclude by representing to you the 
conditions that our workforce operates under, the photo that 
was just on the screen shows our operators who were repairing 
the Markland gate failure which occurred approximately 2 years 
ago.
    On behalf of the thousands of unheralded but dedicated 
Corps' operations professionals who labor dutiful and long 
hours and often in dangerous conditions, Mr. Chairman, Mr. 
Bishop, members of the subcommittee, I thank you for the 
opportunity to testify, and I look forward to your questions.
    Mr. Gibbs. Mr. Knoy, the floor is yours.
    Welcome.
    Mr. Knoy. Good morning, Chairman Gibbs, Ranking Member 
Bishop, and members of the subcommittee.
    I am Mark Knoy, president and CEO of American Commercial 
Lines and Jeffboat. We are based in Jeffersonville, Indiana, 
and have 2,250 employees, 1,450 in the barge transportation 
segment and 800 in our barge manufacturing segment, Jeffboat.
    I appreciate the invitation of the subcommittee to appear 
today and the initiative of our Congressman, Todd Young, to 
bring perspective to the vital issue of reliable waterways 
transportation.
    My testimony today will cover three key topics, 
accountability, reliability, and a plan for addressing the 
challenges of aging infrastructure which support operations on 
our most efficient transportation system, the inland waterways.
    Where is the accountability today for stewardship of our 
taxpayer provided funds for construction and rehabilitation of 
inland waterways infrastructure?
    In the private sector, a major cost overrun of a capital 
investment program would be subjected to rigorous management 
oversight and direct intervention when fiscal controls went 
awry.
    However, thus far, our Government treats a fourfold 
increase in the estimated cost of just one project as no big 
deal.
    For too long, too little scrutiny has been provided to the 
construction technique of this project. Congress has only 
recently been informed that the project has increased in cost 
by 50 percent, $1 billion, in the last year.
    I am, of course, talking about the Olmsted Lock and Dam 
Project on the Lower Ohio River.
    Where is the outrage? Where is the accountability when a 7-
year project will now take 32 years to construct or perhaps 
even longer?
    The new twin 1,200-foot locks were built using a 
traditional coffer dam technique. They will be 20 years old 
when the first barge locks through in the early 2020s.
    The dam is another story. It is being built using an 
experimental technology, building in the wet. Initially, this 
approach was envisioned as saving $60 million. However, the 
project is now woefully behind schedule and billions of dollars 
over budget.
    As a result, we have lost faith in the technology and in 
the investment in this project.
    Remember, please, that we, the industry and its customers, 
have absolutely no control over the decisionmaking for this 
project.
    We are expected to write a check for one-half of the 
project costs and have paid $650 million towards this project 
to date. With an annual appropriation of $150 to $185 million 
for construction of inland navigation projects, the 
consequences of Olmsted's overrun means that almost no other 
investments will be made for any of the 24 projects authorized 
by this committee for modernization of the navigation system 
until at least 2022 at the earliest.
    Reliability. How can you have any confidence in the 
reliability of a system when 56 percent of the infrastructure 
is beyond its designed life?
    Where 34 locks are over 80 years old? When a significant 
failure at a lock could close a major freight transportation 
artery, a disaster for the local and national economy.
    When we are told by the agency managers that we are in a 
crisis and heading for a catastrophe, when a new initiative is 
being rolled out this week to do less with less by shutting 
down locks or reducing hours of service with the sole criterion 
being the number of commercial lockages at the facility.
    Ironically, we are experiencing more problems with our 
newer locks, like Robert C. Byrd and Mel Price, than we are of 
the older locks.
    We are on the brink of losing customers because of fear of 
unreliability. The industry is seeing the divergence of the 
smaller shipper category first, but larger shippers are 
questioning more often the continued investment in waterside 
facilities.
    How inefficient does our Government want our waterways to 
be? As you have already noted, Mr. Chairman, replacing 1 barge 
tow would require an addition of new capacity of 216 rail cars 
plus 6 locomotives or over 1,000 tractor-trailer trucks to an 
already clogged surface transportation system.
    I am sure you are thinking that I must be a heck of an 
optimist to be in this business. For all the challenges, the 
inland waterways still serve as the Nation's best 
transportation system.
    What is lacking is the will to make change, to embrace a 
vision of investment in waterways transportation.
    There is a plan, a good solid strategy for reforming our 
current approach and replacing outdated project delivery 
methods with on time and on budget performance.
    A plan for prioritizing our work, for funding the project 
construction requirement through a combination of user fees and 
cost sharing changes.
    There are bipartisan champions who have authored this plan, 
the ``Magnificent Seven,'' we call them. Congressmen Whitfield, 
Costello, Duncan, Carnahan, Johnson, Congresswoman Terri 
Sewell, and Congressman Bob Aderholt.
    They have come together to propose legislation, H.R. 4342.
    Waterways are vital for the economy, energy, efficiency, 
and the environment.
    This is a farsighted vision for the future of our Nation's 
inland waterways transportation system.
    Four of these Members of Congress serve on this committee, 
and we urge this subcommittee to act this year on H.R. 4342 as 
part of your Water Resources Development Act.
    Mr. Chairman and members of the subcommittee, we indeed 
face daunting challenges and great opportunities.
    The administration has not brought forth a realistic 
workable plan to address these challenges. Detractors of the 
current program offer no alternative, but there is one plan out 
there, H.R. 4342, and a good place to begin the discussion on 
the path forward.
    I look forward to working with the subcommittee to continue 
to provide the best transportation service to our Nation.
    Thank you, sir.
    Mr. Gibbs. Thank you.
    Mr. Hettel, welcome, and the floor is yours.
    Mr. Hettel. Good morning and thank you, Chairman Gibbs and 
Ranking Member Bishop for allowing me to testify here today.
    My name is Martin Hettel. I have been employed within the 
river transportation industry for the last 32 years, 16 of 
these years have been with American Electric Power River 
Operations Division.
    AEP owns and/or operates 3,275 barges and 90 tow boats. Our 
headquarters is in Chesterfield, Missouri, and we have field 
offices in Pittsburgh, Pennsylvania; Lakin, West Virginia; 
Paducah, Kentucky; Convent, Louisiana; and Mobile, Alabama.
    AEP River Operations currently employs over 1,500 people. 
In 2011, AEP River Operations transported over 74.4 million 
tons of cargo within the inland waterways system. Our traffic 
patterns move freight from the gulf coast between Brownsville, 
Texas, and Pensacola, Florida, between New Orleans and Catoosa, 
Oklahoma; St. Paul, Minnesota; Chicago, Illinois; Pittsburgh, 
Pennsylvania; and all points in between.
    Within the last few years, we have seen what is a very 
reliable transportation system deteriorate more and more each 
year to the point we now experience lock outages on a regular 
basis.
    While the reliability of the entire river transportation 
system is vital to AEP River Operations, of the 74.4 million 
tons of cargo we moved in 2011, 48.3 million tons were 
delivered into, out of, and within the Ohio River Basin.
    Therefore, the rest of my testimony will focus on the 
extraordinarily serious problems within the Ohio River Basin.
    Within the last 8 years, we have experienced several lock 
failures on the Ohio River.
    In 2003, Greenup was down for 52 days. In 2004, McAlpine 
experienced a total river closure for 10 days.
    In 2005, the Hannibal Lock experienced a 13-day closure of 
the main chamber, and during that time, the auxiliary chamber 
failed which caused a 5-day total river shutdown.
    In 2009, Markland experienced a failure at the main chamber 
which lasted 154 days. In 2010, we had yet another failure at 
Greenup Lock, along with a closure at J.T. Meyers, an outage of 
Lock 52, that lasted 32 days. This outage at Lock 52 cost AEP 
River Operations $4.6 million in delay costs while waiting to 
transit that lock.
    These outages are in my graph here as Attachment 1 to my 
testimony.
    An outage at Markland that started July 11 of last year is 
still not operational. The lock is not expected to be 
operational until August 3 of this year. This will amount to a 
389-day main chamber closure at Markland Lock.
    As of the end of last month, this outage at Markland has 
cost AEP River Operations already $3.8 million in delay costs. 
By the time this lock is back operational by August 3, the 
total cost to AEP River Operations is estimated at $5.5 
million.
    In addition this year, we had another outage at Greenup 
scheduled for June 3 through September 1. This 90-day outage is 
expected to cost us $1.3 million in delay costs.
    When you add up the outage at 52 in 2010, Markland last 
year and this year and Greenup, AEP's total exposure will be 
over $11.4 million of delay costs.
    These outages are increasing each year. The Corps of 
Engineers predicts that by 2015, we will experience eight more 
lock outages. By the year 2020, they predict 14 lock chamber 
outages. By the year 2025, 18 lock chamber outages, and by the 
year 2030, 22 lock chamber outages.
    This is in my Attachment 2. Just for the record, green is 
good, red is bad.
    All these delays affect the consumer. As we all know, when 
the cost of transportation increases, the final cost to the 
consumer also increases.
    As we have seen in our day to day lives at the grocery 
store, when fuel costs increase, so do the costs of delivered 
goods to the market. When the cost of transportation of raw 
materials increases, the final cost to the finished product 
also increases.
    American Electric Power's electricity to the consumer 
increases as our costs of delivering fuel to power plants 
increase.
    AEP has looked at the predicted lock failures and put 
together a program that estimates the additional cost to 
deliver fuel to our power plants, should we experience a 
catastrophic failure in the upcoming years.
    As an example, if both chambers at Willow Island fail as 
the Corps predicts in 2015, the cost to get fuel to our power 
plants via truck, rail, trans-loading around the lock or buying 
coal on the spot market, would be well over $22 million a 
month.
    The predicted lock failure is compounded by the recent EPA 
regulations put into law, particularly the Mercury and Air 
Toxics Standards, that will shut down coal power plants, with 
less availability for producing electricity coupled with a 
complete lock closure such as the Corps predicts at Willow 
Island, a situation could very well arise that affects the 
reliability of an electricity grid potentially causing 
brownouts or perhaps even limited blackouts.
    Not only do these lock delays affect the consumer within 
this country, it can also affect a producer of materials that 
are exported out of this country.
    With the world markets that the United States competes in, 
increased costs of transporting these products can put the 
producers at a competitive disadvantage in the world 
marketplace. Thus, affecting the steel producers, the coal 
producers, the farmers, and anyone else who competes with the 
export of bulk commodities out of this country.
    AEP River Operations and hundreds of other companies and 
organizations believe one critically important step that 
Congress should take to address this situation is to approve 
and send to the President for his signature H.R. 4342, The 
Waterways Are Vital for Economy, Energy, Efficiency, and 
Environment Act of 2012.
    This legislation introduced by Congressman Whitfield and 
Congressman Jerry Costello, a member of this important 
subcommittee, and others, introduced on a bipartisan basis, 
would put in place what we believe is a balanced, comprehensive 
workable 20-year inland waterways system modernization 
investment plan.
    A second critical step that Congress should take is to 
ensure on a continuing basis the Corps of Engineers is provided 
with adequate operational and maintenance funds to keep the 
Ohio River and the remainder of the inland waterways 
functioning at an optimal level.
    Our Nation's waterways are too important to do anything 
else.
    In closing, I would like to thank you again for this 
opportunity to testify, and I am pleased to answer any 
questions the subcommittee may have.
    Mr. Gibbs. Thank you. Mr. Dolence.
    Sir, welcome, and the floor is yours.
    Mr. Dolence. Thank you, Mr. Chairman and members of the 
subcommittee for inviting me to speak to the subcommittee 
today.
    I have submitted my entire statement for the record but 
will keep my opening remarks brief.
    My name is Robert Dolence. I am vice president and 
principal of Leonardo Technologies or LTI. LTI is a small 
privately held business incorporated in the State of Ohio with 
headquarters in Bannock, Ohio, and offices in Montana, 
Pennsylvania, New Hampshire, New York, Virginia, and West 
Virginia.
    LTI is an energy technology consulting firm focused on 
safe, affordable and environmentally acceptable production and 
use of energy.
    Our more than 100 professionals are involved in the fuel 
and energy cycles from production, upgrading, transporting, 
utilization and disposition of residual materials.
    I was invited to speak today regarding a study LTI 
performed in 2011 for the U.S. Army Corps of Engineers titled, 
``Measuring the Impact of Monongahela Lock Closures on 
Forecasts of Utility Steam Coal Consumption, Sourcing and 
Transportation in the Ohio River Basin.''
    In this study, LTI was asked to assess the likely impacts 
to the regional and national electric utility industries and 
the coal industry that provides fuel to those plants resulting 
from a catastrophic failure of any one of the three lock and 
dam sets, No. 2, No. 3, and No. 4, on the lower portion of the 
Monongahela River closest to Pittsburgh, Pennsylvania.
    I would like to note it is another great river city.
    The locations can be viewed on the map on page three of the 
written testimony. It is my understanding these lowest three 
lock and dam sets on the Monongahela River closest to 
Pittsburgh were selected because they are in the poorest state 
of repair and more susceptible to a catastrophic failure.
    For this study, it was decided to adopt the assumption of 
failure at one of these lowest three lock and dam sets, would 
shut down the entire traffic on the Monongahela River.
    Our modeling effort using the Greenmont Energy Model or 
GEM, automatically calculates the lowest cost transportation 
alternative for each of many coals into a single electric 
energy plant.
    It is important to note that the model does not evaluate or 
determine the adequacy of alternative transportation systems. 
It simply assumed that the alternate transportation capacity 
was available.
    Although not specifically evaluated in the study, it is 
likely that the alternate transportation system, if capacity 
exists at all, would at least be stressed, thereby putting 
further upward pressure on prices.
    Therefore, the results are considered a conservative 
estimate of impacts since the system would have to work harder 
to supply the electricity demand, and might even fail if there 
is a shortage of trucking and rail capacity.
    It was also beyond the scope to assess the 
interrelationships between river, rail, and truck 
transportation and the subsequent non-coal or non-electricity 
price impacts.
    These areas include, but are certainly not limited to, 
availability and price impacts to transportation fuel and non-
coal commodities, highway traffic density increases, highway 
safety, and exacerbated physical impacts to highway and rail 
infrastructure with increased traffic.
    The Monongahela River Lock and Dam study resulted in the 
following conclusions: Under the liberal assumption of adequate 
over land transportation alternatives, no brownouts or 
blackouts occurred, but economic impacts were significant.
    Approximately 21 million individuals are affected by the 
direct impact of the Monongahela dependent plants of interest 
service areas.
    The ripple effect goes far beyond the plants of interest 
service areas, reaching out to a majority of U.S. electricity 
users, in excess of 200 million.
    Through domino effects of increased transportation costs 
compounded by electricity dispatch reactions associated with 
the loss of the Monongahela River waterway traffic, the cost of 
producing electricity increases almost across the entire United 
States.
    Our modeling indicates the resulting price paid by 
electricity customers nationwide would increase by as much as 
$1 billion annually.
    These impacts are single-year impacts that would occur 
repeatedly for each year the lock and dam remained inoperable.
    The impacts noted are only electric price effects resulting 
from coal river traffic impedance. The impacts do not include 
other commodities currently transported on the Monongahela 
River, including petroleum, aggregates, grain, chemicals, ores 
and minerals, and iron and steel.
    If only one-half of the total 2008 tonnage, a little over 
21 million tons, barged through the three Monongahela River 
locks of interest were transported by truck, that is assuming 
the other half could be shipped by rail, it would equate to an 
additional 1,500 20-ton tri-axial trucks every day, or more 
than 60 loaded trucks an hour entering the local roads and 
highways. This number does not include the empty truck return 
hauls.
    Although not part of the study, increased price of 
electricity causes an increase in production costs for 
businesses and cost of living for the general population, which 
typically results in a negative impact to economic growth.
    In other work by LTI, it was forecast that even with 
sustained low natural gas prices, maintaining less than $4 per 
million BTU natural gas cost levels for 50-plus years, coal 
maintains a significant role in electric fire generation, 
industrial and commercial use, and exports, with a total coal 
demand staying above the 1 billion tons per year level for the 
next 50 years.
    Based on the combined detailed modeling performed, LTI 
concludes the Ohio River navigation system is a vital component 
to ensuring safe, reliable, low-cost domestic energy, including 
electricity to our country.
    This concludes my prepared comments. Thank you for the 
opportunity to present the results of our study and my personal 
observations. I look forward to your questions.
    Mr. Gibbs. Thank you.
    Mr. Steenhoek, welcome, and the floor is yours.
    Mr. Steenhoek. Thank you, Mr. Chairman and members of the 
subcommittee.
    In the interest of brevity, I am just going to confine my 
comments to four statements.
    Number one, transportation, particularly the inland 
waterways system, is not just a contributing factor to the 
economic competitiveness of U.S. agriculture in general and the 
soybean industry in particular, it is the predominant one.
    When you look at the cost our customers pay on the 
international marketplace for agricultural products, and for 
soybeans in particular, the reason why we in the United States 
are the most economical choice on the international marketplace 
is not due to our lower cost of production. It is due to the 
lower cost of transportation.
    We are not the only country that can produce what the 
international marketplace needs, but what sets us apart is our 
ability to deliver it to them in a cost-effective manner.
    The expansion of the Panama Canal really presents an 
opportunity for agriculture and freight interests in general, 
with the greater efficiency of maritime transportation, but 
that opportunity is incumbent upon us to make needed 
investments in our port infrastructure and our inland waterways 
system, otherwise, it will be a missed opportunity.
    The next statement is our overall dilapidated locks and 
dams exhibited by unscheduled maintenance, mechanical 
breakdowns, and a threat of failure sends a terrible signal to 
those who utilize the system.
    How can we expect grain handlers in this country and other 
freight interests to invest millions of dollars in new 
facilities or upgraded facilities if they do not have the 
confidence that they can make those deliveries to their 
customers in a cost-effective manner?
    It is sending a real terrible signal to industry. We want 
rural America to be an attractive place for investments, and 
our concern is the unintended consequences, but it is an 
unambiguous consequence of our inability to invest in our 
inland waterways system, and really sends a discouraging 
message to that investment, that we in this country so 
desperately need.
    Number three, the third statement, how you allocate money 
is just as important as how much money you allocate.
    This is perhaps a blunt statement, but I think it is an 
accurate one, that if I were to design a funding mechanism that 
would result in consistent and dramatic cost overruns for our 
inland waterways system, I would design a system that we have 
right now, where there is great uncertainty, the money is not 
provided in one lump sum.
    As a result, you see work commence. You see work stop. That 
is a very inefficient way to maintain the system.
    I have been to the Panama three times over the last couple 
of years, and really have observed the Panama Canal Expansion 
Project and the Panama Canal right now.
    Here is a project that was commenced in 2007. It is slated 
to be completed in 2014. Actually, the Panama Canal Authority 
had to swallow some pride over the last week where they made 
the dire announcement that the canal expansion is not going to 
be completed in October of 2014, it will be completed in 
December of 2014. Actually, at the end of the day, it might be 
early 2015.
    What a contrast to how we do things in this country. The 
reason why they have such a superior record on deliverance of 
projects is not because they have superior engineers that we 
have in this country. We have wonderful engineers in this 
country.
    When you look at how they are financing this project, you 
see money provided in a lump sum. You see certainty of funding. 
That is a much more appropriate way to invest in major capital 
expansion projects.
    You see it replicated throughout the world. I think that we 
have a lot to learn. I think the country that built the Panama 
Canal has a lot to learn from the country that currently owns 
and operates the Panama Canal.
    Fourth and finally, the statement I would like to make is a 
predictably good inland waterways system is superior to a 
hypothetically great one.
    I think that we are failing on two fronts. Number one, we 
are failing on our ability to build these new and expanded 
locks. The testimony referenced--the earlier testimony 
referenced the Olmsted Project, and that is the quintessential 
example.
    We are doing a poor job of building these new projects, but 
at the same time we are doing a poor job of maintaining the 
system we currently have.
    I think it would be a much better message sent to industry, 
to those who utilize the inland waterways system, if you can 
provide some greater predictability and certainty to the 
system, since we are asking them to make these millions of 
dollars in investments and explore these markets, domestic and 
international.
    I think that would be a much better message to send. 
Practicing good stewardship of this important system versus 
trying to develop something that is hypothetical.
    That concludes my comments, Mr. Chairman. I would be 
pleased to answer any questions.
    Mr. Gibbs. Thank you.
    Ms. Meira, the floor is yours, and welcome.
    Ms. Meira. Thank you. Mr. Gibbs, Mr. Bishop, members of the 
subcommittee, I am honored to participate in this panel and 
appreciate the opportunity to highlight our unique river system 
in the Northwest.
    We are grateful to the subcommittee for convening this 
hearing to focus on the needs of the Nation's inland waterways.
    Founded in 1934, PNWA represents Columbia River, Puget 
Sound, and Northwest coastal interests on navigation, 
transportation, energy, regulatory and environmental policies.
    PNWA's membership includes over 115 public ports, tow boat 
companies, steamship operators, ag and forest products 
producers, public utilities, manufacturers, and others in 
Oregon, Washington, Idaho, and Northern California.
    Our Nation's economy relies on a safe, efficient and cost-
effective multimodal transportation system. That system 
includes road, rail, air, and water.
    The Columbia-Snake River System is a critical piece of the 
Nation's navigation portfolio, providing benefits not just for 
the Pacific Northwest, but far into the heartland of our 
country.
    The Columbia River is the Nation's number one gateway for 
the export of wheat and barley, and when you consider the 
movement of soy and other grains, our river system is the third 
largest grain export gateway in the world.
    The Inland Columbia-Snake River System is a water highway 
that stretches from Vancouver, Washington, and Portland, 
Oregon, inland 360 miles to Lewiston, Idaho, and Clarkston, 
Washington.
    Our inland system is comprised of a 14-foot-deep navigation 
channel and a series of eight locks. These are the highest lift 
locks in the United States, and are among the highest in the 
world, with the John Day Lock tapping out at 110 feet.
    Our inland system handles over 10 million tons of 
commercial cargo each year, with a value of over $3 billion.
    I mentioned earlier that we are the top wheat export 
gateway in the Nation, roughly half of the wheat exported out 
of the deep draft Lower Columbia River arrives at those export 
facilities by barge.
    Other commodities that move on our inland system include 
petroleum products, containerized ag products, forest products, 
and large project cargo.
    Our system provides some environmental benefits as well. A 
typical barge on the Columbia-Snake River System can carry 
3,500 tons. That compares with 100 tons per rail car and 29 
tons per truck.
    We estimate that each year, barging on our system keeps 
700,000 trucks off the highways that run through the sensitive 
air shed of the Columbia River Gouge National Scenic Area.
    Early in the last decade, our colleagues at the Portland 
and Walla Walla Districts of the U.S. Army Corps of Engineers 
recognized that our aging locks would require strategic repairs 
to remain operational and reliable.
    They also recognize that these projects would need to be 
planned and executed to have the least impact to our regional 
and national economy.
    It is important to remember with the scale of our 
navigation infrastructure projects, a catastrophic failure of 
one of our lock dates would translate to at least a 1-year 
closure of that project. That is how long it takes to design, 
fabricate and install a lock gate of that size.
    We also do not have any smaller backup locks at our 
projects. Allowing our locks to degrade to the point of failure 
simply is not an option.
    A closure of one of our projects creates a bottleneck for 
the entire system.
    Beginning in 2006, the Corps and PNWA partnered to discuss 
the highest priority repairs, funding estimates, and timeline.
    The goal, minimize planned and unplanned system closures. 
This collaborative planning meant that our river system was 
well poised to execute funding made available through the 2009 
American Recovery and Reinvestment Act.
    The Corps began working with stakeholders to prepare for 
new downstream gates at three of our projects, and major 
repairs at three other locks.
    A tremendous amount of coordination went into what was 
eventually a 15-week complete closure of our inland navigation 
system. This type of long-term plan closure had never been done 
on any inland waterway in the United States.
    We worked closely with the Corps for over a year to prepare 
growers, shippers, ports, tow boaters, steamship operators, and 
fuel companies, the media, the legislators, and the States of 
Oregon, Washington, and Idaho for this unprecedented closure.
    Special emphasis was placed on outreach to grain buyers 
overseas who were accustomed to sourcing U.S. wheat from the 
historically reliable Columbia-Snake River System.
    Every moment of the 14 months leading up to the closure was 
necessary to ensure that both domestic and international 
stakeholders were prepared for the shutdown of our system.
    I am pleased to say that this effort was a complete 
success, and a project for which the Corps, stakeholders, and 
Congress can truly be proud of.
    Because of the outstanding partnership between the Corps 
and stakeholders, impacts to our regional and national economy 
were minimized.
    I want to note that the positive experience we had is not 
indicative of the economic impacts that would be suffered if 
there were an unplanned closure of our system.
    Because this was a well planned effort, shippers could 
decide whether to ship early, use alternate transport where 
available, or increase their storage locally with the intent to 
ship after the system reopened.
    A major study just completed at Washington State University 
confirmed that most producers attempted to either ship their 
goods prior to closure or after the system reopened.
    The lock closure demonstrated that the Columbia-Snake is 
key to the international competitiveness of many producers in 
our region, and is the preferred mode of transportation for 
many goods produced in our heartland.
    Last year's closure addressed the most immediate needs on 
our river system, but we know that our projects continue to 
age, meaning more components will reach the end of their design 
lives.
    We continue to partner with our Corps' Districts and our 
Division, and our joint goal is to identify major maintenance 
needs, predict system closures years in advance, and protect 
the reliability of our system.
    We realize every agency is facing funding shortfalls. It is 
imperative that our country continue to provide the 
infrastructure that makes commerce possible.
    It is our belief that future regional national economic 
competitiveness hinges on the availability of reliable 
navigation infrastructure, our water and highways.
    Thank you again for this opportunity to testify, and I am 
happy to answer any questions you may have.
    Mr. Gibbs. Thank you.
    Mr. Rossberg, the floor is yours. Welcome.
    Mr. Rossberg. Thank you. Mr. Chairman, Congressman Bishop 
and members of the subcommittee, the members of the American 
Society of Civil Engineers are pleased to provide our views on 
how the reliability of the Nation's inland waterways impacts 
the economic competitiveness of the United States.
    Mr. Chairman, you have our complete written statement for 
the record, so let me just summarize a few key points.
    First, efforts by the administration and Congress to 
address the growing deficiency in investing in our waterways' 
infrastructure have been largely ineffectual due to political 
considerations that give preference to deficit deduction and 
tax cuts over the badly needed and concededly expensive 
restoration of our Nation's critical infrastructure.
    These policy failures at the White House and in Congress 
threaten our Nation's global economic competitiveness.
    In 2009, ACSE's report card for America's infrastructure 
gave the Nation's inland waterways a grade of D -, an 
indication that the system is near failure, that you have heard 
from other witnesses today.
    Neither the President nor Congress has done anything in the 
year since to improve upon that extremely dismal assessment, 
such as the adoption of a long-term systemic approach to 
improving the performance and condition of our national 
waterways.
    Second, 47 percent of all locks maintained by the U.S. Army 
Corps of Engineers were classified as ``functionally obsolete'' 
in 2006.
    Without the badly needed funding, by 2020, another 93 
existing locks will be obsolete, or to put it another way, more 
than 8 out of every 10 locks now in service will be outdated. 
Most locks are now anywhere from 50 to 70 years old.
    The current system of inland waterways lacks resilience. 
Waterway usage is increasing, but facilities are aging, and 
many are well past their design life of 50 years.
    Recovery from any significant event will be hampered by the 
age and deteriorating condition of the system, posing a direct 
threat to the American economy.
    The estimated cost of repairing and modernizing the assets 
of the inland system is approximately $8 billion. Despite the 
obvious needs, the balance in the Inland Waterways Trust Fund 
has been declining for more than a decade. In April of 2010, 
the Inland Waterways User Board, a consortium of waterways 
users created by Congress, released a proposed investment 
strategy for the inland waterways system that would increase 
the 20 cent diesel fuel tax to 26 or 29 cents.
    Applying a tax of 26 cents to each gallon sold to the 
estimated fiscal year 2011 fuel sales would generate about $109 
million annually or an additional $1 billion over 10 years.
    The tax rate for the Trust Fund has been 20 cents per 
gallon since January 1st of 1995. We believe that an increase 
in the waterways users' fee is long overdue, and we concur with 
the IWUB recommendation that the current fee be increased 
between six and nine cents a gallon.
    ASCE's support for the IWUB plan, however, is contingent 
upon two important considerations. First, any increase in the 
user fee should also include a provision to index that fee to 
the consumer price index and be adjusted every 2 years.
    And, second, any diesel fuel tax revenues received by the 
Trust Fund should be firewalled to establish discretionary 
spending limits in the same manner used for the Highway Trust 
Fund and the Aviation Trust Fund, and to reserve the Inland 
Waterways Trust Fund revenues exclusively for the 
reconstruction of a systems aging infrastructure.
    And lastly, our major point is the Corps of Engineers' 
Civil Works Program has suffered from chronic underfunding for 
essential infrastructure systems. If allowed to continue, this 
trend will likely result in ever greater system failures and 
the consequent expenditures of tens of billions of dollars to 
rebuild what could have been built more economically in the 
first place.
    Following Hurricane Katrina in 2005, an ASCE study 
commissioned by the Corps reported that chronic underfunding 
and indifference to maintenance were the principal causes of 
the levy failures after Katrina. The President's budget for the 
Civil Works Program in fiscal year 2013 and the House budget 
resolution would further reduce Federal investment in the 
Nation's essential national Civil Works system.
    This week the House Appropriations Committee has drafted a 
bill that would set the Corps' fiscal year 2013 budget at $4.7 
billion, a decrease of nearly 6 percent over the fiscal year 
2012 enacted level of $5 billion. The funding level in the 
legislation is inadequate to meet the needs of an aging 
waterways infrastructure and must be increased.
    Doing more with less is not a solution. It is a political 
slogan that ignores the consequences of continuing to 
underinvest in our essential infrastructure. America cannot 
compete in the world marketplace with 100-year-old locks, two 
shallow harbors, and promised investments in key infrastructure 
systems and a seeming blindness on the part of policymakers to 
the economic peril we face.
    Congress and the President can never say ``we were not 
told.''
    Thank you.
    Mr. Gibbs. Thank you.
    I am going to start out the first round of questions, but I 
would first like to say I think everybody is in agreement that 
we have a challenge and potentially very even catastrophic 
issue before us that affects our economy and our standard of 
living in a large part of the country.
    I do want to start out with General Peabody. I think we 
need to talk maybe briefly about Olmsted. I do not want to 
point fingers at anybody, but I think maybe we can learn from 
the past, and I think there is plenty of blame to go around, 
and one, I think it comes out as the evidence of basically 
Congress' failure over many, many years to fund the projects 
initially and get on with it. I know other things are factored 
in there, the studies, the requirements, and feel free to talk 
about that, General, too, why maybe there are some of the 
delays to that beyond what the Corps can do.
    But I want to give you a chance to respond a little bit on 
what is happening in Olmsted because that is taking so much of 
the capital budget and so much concern. I think that, like I 
said, we can learn from the past, but not to blame totally 
anybody's fault in particular, but let's see if we can use that 
as constructive.
    So, General, I will give you a chance to respond to some of 
the discussion we have had so far.
    General Peabody. Thank you, Mr. Chairman.
    I would appreciate a little bit of leeway on the brevity 
aspect. I will try to be as brief as possible, but as I think 
you know, and you have visited there, this is a complex 
project.
    Let me focus on what I consider to be the bottom line. 
There are four points. First and foremost, the location of the 
Olmsted Project in the Lower Ohio River, just before the 
confluence with the Mississippi, makes it the hub of the inland 
marine transportation system in the Mississippi watershed. In 
recent years, the tonnage that passes through that location 
averages between 80 and 90 million a year, and if past is 
prologue, we would anticipate that that tonnage over the next 
couple of decades would continue to climb steadily above 100 
million tons a year. So it is critically important to the 
Nation, and I believe coal is the largest commodity that goes 
through that location.
    Second, Lock and Dam 52. There are two locks and dams that 
the Olmsted project is replacing, both of which are in a highly 
deteriorated state. They were built in the 1920s, and they are 
sitting on timber piles. Lock and Dam 52, in particular the dam 
component, is very fragile. The wicket dam is sagging 
approximately 4 to 5 inches, and it is my belief that either 
Lock and Dam 52, or Charleroi on the Lower Monongahela River, 
are the two points in the system that are most likely to fail, 
given what I know.
    The challenge is that we do not have Superman x-ray vision 
so we cannot see inside these projects. We cannot see 
underground. Testing would require destructive processes which 
could set in motion a sequence that would result in 
catastrophic failure. So our state of knowledge is imperfect.
    Third, once complete, the transportation rate savings at 
Olmsted based on 2011 dollars are approximately $800 million a 
year. I think it is just under that, $780 or $790 million. Now, 
it is my understanding, and my information is a little bit 
dated, but the latest information I have is that the current 
estimate for the project completion in 2011 dollars is about 
$2.8 billion. The project pays for itself in just 4 years in 
transportation rate savings.
    Fourth, the Corps can, and does, deliver complex projects 
on time and under budget when enabled to do so. A great example 
of this is the Hurricane Storm Damage Risk Reduction System. 
This is a $14.6 billion project. Thank you for the multiple 
supplementals from Congress enabling us to do that.
    It was enabled by full funding upfront, which is not the 
Civil Works model for the vast majority of our projects. It was 
enabled by accelerated NEPA documentation and consideration by 
EPA and CEQ, and it was enabled by advanced risk-based cost 
estimating procedures which we have developed in the 20 years 
intervening since we began the authorization for the Olmsted 
Project, as well as other acquisition strategies that are much 
more innovative and involve industry much more upfront so that 
we have a greater clarity of the risk and industry can provide 
us the benefit of their knowledge.
    Finally, the final bottom line point I would make is the 
truth regarding Olmsted is very complex, but the bottom line to 
me is pretty simple. At the time that we developed the 
authorization and the feasibility study, we simply 
underforecast the technical complexity of putting the largest 
lock and dam system this country has ever built in the most 
dynamic location of the river anywhere in this country that we 
have ever built a lock and dam. Those are just brutal truths.
    And then, we suboptimized our way along the 20-plus years 
of execution. So that is the bottom line, Mr. Chairman. I can 
get into a lot of the details and the facts, and I would 
highlight a couple.
    If you accelerate for inflation, which is the only proper 
way, in my opinion, to measure cost, then the cost is a little 
bit less than double what the final estimate was at the time, 
shortly after the authority was passed because I think our 
final estimate was just slightly above what the original 
authorization was.
    We have sunk, and I do not have the precise figure, but it 
is close to $1.4 billion to date into this project. So those 
are sunk costs. We have done all the preliminary requirements 
that are required to do this, all the Civil Works studies 
processes, which goes back, I think, into the 1940s in this 
case. So this is a project with a lot of history behind it.
    We have all of the environmental and NEPA documents and 
cultural and historical documentation and mitigation plans put 
in place. We have the planning and engineering and design 
complete. We have built all of the infrastructure that you saw 
in place that enabled us to build these 3,500-ton Lego blocks 
and put them into the riverbed. All that is sunk cost.
    To walk away from it or to try to go toward a different 
avenue, in my judgment, pending further analysis, which the 
Corps is doing, we would have to look at that very closely 
because there is a lot of effort and energy that has gone into 
this already.
    Now, the Corps is--and we started this under my watch, I 
think, as you are aware, Mr. Chairman. We talked to you about 
this when you visited the project back in August of last year--
the Corps is reviewing all possible alternative ways forward. 
Those include changing to alternate construction methods, what 
some people call ``in the dry,'' but that is a traditional 
coffer dam. This is not a simple solution though because, 
again, most dynamic areas of the water river, 40-foot river 
stage change on an average year, which means the coffer dam has 
to be extremely robust and there is no bedrock. It is 300 feet 
down into alluvial river deposits before you hit bedrock. So 
you have to get friction piles down there. They are very 
expensive, technically complex, and it would likely be over-
topped at some point, especially if we were to have a high 
water event like we had in 2011.
    We are looking at project management oversight. I have 
spent a lot of my time when I was in command of the Great Lakes 
and Ohio River Division, examining the project management 
oversight. I came away convinced that we had in place proper 
procedures, but we are taking an external review to take a look 
at that and see if there is something we can do better.
    We are engaged in looking at funding alternatives, and we 
are looking at the acquisition strategies. So, for example, 
perhaps shifting from cost reimbursable approach, which was the 
only way we could get the dam component to get bidders on it at 
the time about a decade ago, perhaps early contractor 
initiative, perhaps a firm fixed price, those are going to be 
examined.
    Mr. Gibbs. OK, John. I am going to have to----
    General Peabody. That is my last point, sir. So I will turn 
it back to you for any followup questions.
    Mr. Gibbs. OK. We are going to go on to questions here. So 
go ahead.
    Mr. Bishop. No, no, no. You go.
    Mr. Gibbs. We are fine. There are not going to be many 
Members here. So we will have plenty of time to go back and 
forth here a few times. So go ahead, Congressman Bishop.
    Mr. Bishop. Mr. Chairman, I would be happy to defer.
    Let me start with H.R. 4342, which several of my colleagues 
have offered as legislation. I think Mr. Duncan is one of the 
sponsors of it. Clearly, it represents a solution to a problem 
that we all agree exists, and that we all agree we must find a 
solution for.
    But let me point out what I fear is the difficulty. It 
would add approximately in a static environment where Corps 
funding was steady state; it would add approximately $180 
billion, million, $180 million of annual obligation to the 
Corps, which would be difficult for the Corps to accommodate in 
a static environment.
    But we are not in a static environment. We are in an 
environment in which we have twice now in the House of 
Representatives, once right before Easter break and once again 
as recently as yesterday, passed a budget that would cut Corps 
funding for next year by at least $200 million.
    So we are in an environment in which if we were to pass 
4342, we would be adding $180 million of annual obligation to 
the Corps and taking away $200 million worth of capacity from 
the Corps. So round----
    Mr. Gibbs. Just excuse me for a second. Indulge me. I have 
got to go vote in a committee, and I want to turn it over to 
Representative Bucshon until I come back.
    Mr. Bishop. OK, fine. OK. So we are talking about a $400 
million swing in 1 year, and so I guess my question to you, 
General Peabody, and I know you do not speak for the Corps, but 
I would presume that to accommodate a $400 million swing in 1 
year and still try to maintain all of the other activities and 
obligations of the Corps would be exceedingly difficult. Am I 
right about that?
    General Peabody. Mr. Bishop, yes, sir. Any budget cuts 
require choices and tradeoffs or budget reductions I should 
say, and those choices and tradeoffs are not easy, especially 
at a time where our infrastructure is already aging and, as 
testified to by many of us, requires, if we are going to 
sustain the infrastructure we have, and I think that is a fair 
question for us to ask ourselves.
    Mr. Bishop. But we would be----
    General Peabody. To require these tradeoffs.
    Mr. Bishop. Is it not fair to assume that we would be 
pushing around a problem, that we may very well solve the 
inland waterways problem with an additional $180 million a 
year, or at least be on a path to solving it?
    General Peabody. Without an increase in the Corps' overall 
budget, yes, we would have to reduce elsewhere.
    Mr. Bishop. Something would give.
    General Peabody. That is correct.
    Mr. Bishop. Harbor maintenance, dredging.
    General Peabody. Well, sir, you know the biggest----
    Mr. Bishop. Shoreline protection, something would go away.
    General Peabody. I cannot predict what that would take. It 
would probably, you know, cut across several aspects of the 
Corps' budget, from investigations, construction, on in, but 
our biggest account where most of the money is, I think it is 
on the order of 80 percent, is in the operations and 
maintenance account.
    Mr. Bishop. Yes.
    General Peabody. So while I cannot predict where the cost 
savings would come from, that is the account where, you know, 
most of the money is and, you know, would likely take a large 
proportion of the cut.
    Mr. Bishop. OK. I cut off the chairman. I should not have 
done that, but I have been suggesting to the chairman and to my 
colleagues and to the various stakeholders that we have to move 
off the dime here. We have got competing proposals. Each of the 
proposals has merit associated with them. Each of the proposals 
has problems associated with them. And what I have been 
suggesting is a round table where we bring together Members and 
stakeholders and try to sit down and has this out and hopefully 
arrive at a solution that we can all find reasonable.
    So let me just ask each of you, and I am just going to ask 
each of you to answer yes or no: would you be willing to 
participate in that kind of roll up your sleeves round table so 
that we can try to move off the dime here?
    And I will start with you, General.
    General Peabody. Yes.
    Mr. Knoy. Yes.
    Mr. Hettel. I think I would be supportive of anything the 
subcommittee could come up with in discussions to fix this 
problem.
    Mr. Bishop. So I will take that as a yes.
    Mr. Hettel. I would be supportive of anything the committee 
would come up with.
    Mr. Bishop. I will take that as a yes. Thank you.
    Mr. Dolence. Yes.
    Mr. Steenhoek. Yes, sir.
    Ms. Meira. Yes.
    Mr. Rossberg. Absolutely.
    Mr. Bishop. I will take that as a yes as well.
    OK. Thank you. My time has expired. I will yield back to 
the chairman. Thank you.
    Dr. Bucshon. [presiding.] Mr. Duncan.
    Mr. Duncan. Well, thank you, Mr. Chairman. I thought that 
maybe you were going to ask some questions first, but that is 
fine.
    I can tell you that you cannot serve on this subcommittee 
very long before you realize that the people of this country 
take all these subjects that we deal with in here very much for 
granted, our waste water system, our clean water system, our 
inland waterways system, and all of these things are very, very 
important to this country.
    I was thinking just a moment ago another one of my 
committees held three hearings, I think, 2 or 3 years ago on 
the issue of steroids in sports, and we had many famous 
baseball players testify, but I remember when Roger Clemens 
testified the hearing room was packed with photographers and 
reporters. The very next week in that same committee we had a 
hearing on reforming the Federal contracting process, much more 
important, no reporters, no photographers, because we live in 
this celebrity age, and we a lot of times emphasize things that 
we should not emphasize and do not emphasize things that we 
should.
    There are three or four people who have heard me tell this 
story in here before, but many years ago, I had a businessman 
in Knoxville who called me on a Thursday and asked if I would 
meet with him concerning the Chickamauga Lock, which is not in 
my district. It is close to Chattanooga, but I said, sure, that 
I was flying back to Washington. I still remember. I was flying 
at that time back to Washington on a 1:50 plane that afternoon, 
and I said, ``I will meet you at a restaurant near the 
airport,'' and I expected that gentleman, and I would not have 
been surprised if he brought one or two people with him.
    But I showed up in that restaurant, and there were about 
100 people there that day, and I did not get to eat lunch 
because just one after another they stood up and told me how 
important the Chickamauga Lock was to their businesses, and it 
really made an impression on me because, you know, I think for 
the first time I realized that this lock, even though it was 
not in my district, it was more important to me in the 
Knoxville area than it was even to the people closer to the 
lock.
    And I have visited many of the locks around the country 
when I chaired this subcommittee, and I think it is very 
unfortunate that people do not realize how valuable this and 
how important that inland waterway system is to this Nation.
    And then almost every project we deal with in here, the 
airports, the highways, we are taking three times or four times 
as long to complete these projects as there are in any other 
developed nation. I remember when I chaired the Aviation 
Subcommittee. The Atlanta airport people told us their newest 
runway, which now is several years old, had taken 14 years from 
conception to completion. It took 99 construction days.
    The Federal highway people, I now chair the Highways and 
Transit Subcommittee, and their last two studies say 13 and 15 
years, one study 13 years, one study 15 years, from conception 
to completion. These are not transcontinental highways.
    So, Mr. Knoy, I did not get to hear your testimony. I was 
in some other meetings, but I read your testimony, and I loved 
it when you had in there, ``Where is the outrage?'' about 
Olmsted and talking about 32 years to take something that was 
supposed to take 7 years.
    Let me ask you this. I guess I do not have many questions. 
I am just making some comments here, but one thing I noticed 
that you said. You said that we are having more promise with 
the new locks than the older locks. Why is that do you think?
    Mr. Knoy. I do not know the answer to that question. Just 
intuitively and through the practice of our business though, 
our newest lock on the Ohio River system, Robert C. Byrd, we 
have just as many problems with it as we do the older locks. I 
do not understand why.
    Mr. Duncan. Well, that is something that should concern all 
of us. We certainly need to look into that.
    Mr. Hettel, I read in your testimony about the outage at 
Markland, and you said it is going to be 389 days; is that 
correct?
    That and the other outage you mentioned, it is going to 
cost your company, you think, you are estimating $11.4 million?
    Mr. Hettel. That is correct. The Markland outage, the Corps 
is expected to get back in there this summer and complete that 
project early August. That will be a total of a 389-day outage 
at the main chamber at Markland.
    But, yes, you add Lock 52 outage, the Markland outage, and 
the Greenup outage together, it is estimated somewhere around 
$11.4 million.
    Mr. Duncan. Do you think that those outages are taking an 
undue amount of time to correct or do you understand what is 
causing outages of this length?
    Mr. Hettel. I do understand that Markland is a situation on 
water levels. I think the general is more apt to speak on that 
than I am. I do not think they had the funding to go back in 
and complete it. They did not want to go in and partially 
complete the job, get flooded out, and go back in again because 
of funding constraints. Again we come down to funding 
constraints.
    I believe there are 43 or 46 days of work left to do at 
that facility, and it has been sitting idle since the end of 
November.
    Mr. Duncan. Well, I will just close with this. I know my 
time is up, but you know, it really galls me that we keep 
spending hundreds of billions in other countries, and I am not 
just talking about Iraq and Afghanistan because years ago all 
of these departments and agencies, they saw some department 
having an office in Rome or London or Paris or whatever, and 
they wanted to have offices there, and so I heard last year on 
the news that the FBI has more offices in other countries now 
than it does in the U.S., and it is every department and agency 
in the whole Federal Government.
    We are spending hundreds of billions in these other 
countries. We are trying to run the whole world, and we cannot 
afford it. And we have got to start taking care of this 
country.
    And I really appreciate the chairman calling this hearing 
because anything that we can do, anything that you gentlemen 
and lady can do to call attention to the situation in this 
country so that we do not continue to take these water systems 
and these inland waterways and so forth for granted because we 
are not going to be able to--somebody was mentioning the global 
competition. We talk about it, but we have got stop talking 
about and start doing something about it or we are going to 
lose out.
    I met with the CSX Railroad about a month ago. This is an 
unrelated kind of thing in a way, and he said that they tried 
to 7\1/2\ years to get approval to mine this rare kind of 
mineral, and they finally gave up and went down to Brazil and 
got approval in a few weeks.
    We have got to get these environmental radicals under 
control so that we can open this country up. All the college 
graduates wonder why they cannot find jobs except in 
restaurants as waiters and waitresses and so forth.
    Thank you very much, Mr. Chairman.
    Dr. Bucshon. Thank you.
    I think everyone can agree we need a dramatic effort to 
modernize the infrastructure on our inland waterways. The 
question continues to be, I guess, how we finance this work. 
Money alone is not the answer without an assessment of why we 
continue to have dramatic cost overruns and delays in the 
United States.
    I toured the Olmsted project also with Chairman Gibbs, and 
so I have a pretty good understanding, and my district is on 
the Ohio River, Evansville, Indiana. So it is very important to 
my constituents.
    Like many of the things we do here in Congress, it is time 
to change business as usual. Continuing to authorize taxpayer 
dollars without demanding more accountability and efficiency 
across the Government has to stop.
    In my view the Republican budget reflects this philosophy. 
As a physician, I am going to reference a medical or have a 
medical reference. It is schizophrenic to continue to do the 
same thing over and over and over and expect a different 
result.
    With that I would like to start out and ask General 
Peabody. Did the Corps receive stimulus money?
    General Peabody. Yes, Mr. Bucshon, we did. I think it was 
something approaching $5 billion total in stimulus money.
    Dr. Bucshon. So reading about the situation, the total 
assessment of the amount of money it would take to catch up on 
all of our projects was approximately what, $11 billion, 
something like that?
    General Peabody. I would have to take that question for the 
record, sir, but I can tell you that a little over $400 million 
of that money went to inland marine transportation system 
capital construction projects that were not cost shared by the 
Inland Waterways Trust fund.
    An additional amount went to operations, maintenance. I do 
not have that.
    Dr. Bucshon. I guess my point is, you know, we have been 
talking a lot about millions today, and we have a stimulus of 
$5 billion. You know, that seems like enough money to solve 
quite a number of problems that we have been talking about here 
today.
    Does the Corps have an itemization of where all that money 
went or has it been distributed to the Corps?
    General Peabody. Yes, sir, we do. I think the figure, and 
again, I will follow up for the record, but the figure on the 
backlog of authorized Civil Works construction is somewhere 
around $60 billion. So $5 billion, while a significant amount, 
is a relatively small proportion of the overall requirement, if 
we are going to sustain the infrastructure we have.
    Dr. Bucshon. Yes. Five billion sounds like quite a bit of 
money to me.
    Since the mid-1980s, as you know, we have had a dramatic 
change in how difficult it is to get projects completed, and it 
is not the Corps' fault alone. Can you give me an assessment of 
why you think since the mid-1980s all of a sudden there has 
been a dramatic change in our ability as a country to complete 
projects?
    General Peabody. Well, I think a great example is one that 
I have talked many times with Mr. Steve Little about. He is the 
president of Crounse Corporation, and he talks about McAlpine 
Lock and Dam, which is at a critical point at the falls of the 
Ohio in Louisville. And in 1959 we started a project, the 
original lock, the current main lock chamber, built that in 3 
years, completed it in 1962.
    Then in 1999, we started an auxiliary chamber to extend 
that auxiliary chamber to 1,200 feet, and that took 10 years. 
Now, what happened in between, tells the tale of the tape, 
which is, we had a large number of new Federal laws, which the 
Corps has to comply with that are associated with environmental 
concerns, cultural and historical concerns, and so forth. That 
is a part of it.
    The other part of it at that particular location was the 
location, you know--we took the easy spot on the first lock. So 
that left the hard spot on the second lock, and that had harder 
rock. I mean literally harder geology and more technically 
complex location to actually build a lock. So that was part of 
the other.
    The last piece of that is what I talked about earlier: 
full, efficient funding upfront. We can only build as 
efficiently and as quickly as we have funding available to the 
task, and typically we do not have that, with rare exceptions 
like the New Orleans case.
    Dr. Bucshon. Prior to 1986 did you have it? I mean, prior 
to the mid-1980s the Congress was providing the appropriate 
funds at the appropriate time? Is that what you are saying?
    General Peabody. What changed in 1986 was the cost share 
requirement, which became a principle in the case of capital 
construction, was Inland Waterways Trust Fund cost shared. But 
I would have to go back and see whether this model of 
incremental, year by year funding has been. I think it has been 
the model for a large period of time, Mr. Bucshon. I cannot 
tell you how long though.
    Dr. Bucshon. Thank you. My time has expired.
    Mr. Bishop, I think we are back.
    Mr. Bishop. Let's go to the chair. Gee, I keep trying to 
defer to you.
    Mr. Gibbs. [presiding.] Go ahead.
    Mr. Bishop. A couple of things. Just with respect to the 
stimulus, those projects, at least those projects under the 
jurisdiction of the T&I Committee, were routinely reviewed. We 
had at least 15 or 20 hearings over the course of the period of 
time of the stimulus under the leadership of Chairman Oberstar, 
in which we monitored where the money was going, how it was 
being spent, the timeliness with which it was being spent and 
so on.
    So I think there really was some pretty good congressional 
oversight in that regard. I think one of the points, General 
Peabody, that you are making is that one of the reasons that 
with the stimulus projects we were able to spend those out more 
quickly was that the stimulus in many cases waived the local 
cost share, and the 1986 WRDA brought in a local cost share.
    General Peabody. Sir, the ability to execute those dollars 
had nothing to do with the cost share requirement. Well, let me 
recharacterize that. Our ability to execute it had to do with 
the planning and engineering and design was mature for those 
projects.
    Mr. Bishop. So they were ready to go.
    General Peabody. If it had to have been cost shared, we 
would not have been able to execute it, notwithstanding the 
Federal ARRA funding available. That is correct.
    Mr. Bishop. OK. So at least that was a model that worked. I 
am not suggesting, by the way, that we eliminate local cost 
share. I do not know how we do that in this environment.
    General Peabody. I am agnostic on how we get revenue to 
execute our requirements. As the person charged with executing 
requirements, it is just very helpful to have that revenue, 
know when it is going to come, and have certainty year over 
year that you are going to get the efficient funding needed to 
execute the construction efficiently.
    Mr. Bishop. One of the mantras of this committee over the 
last 18 months has been that we need to do more with less. Mr. 
Rossberg, you referenced this in your testimony, in which you 
expressed some skepticism as to whether or not we can do more 
with less.
    My own view is that there probably are areas of the Federal 
Government where we can do more with less, but I think in this 
area we would be hard pressed to find--I mean, I think the cost 
of rehabbing a lock is the cost of rehabbing a lock. You have 
got raw materials costs, you have got labor costs, and I mean, 
you showed us, General, a series of pictures. Do you have a way 
forward in which you could do more with less to remediate some 
of the problems that you showed us?
    General Peabody. Sir, I think it is always possible to 
search out and gain efficiencies. One of the good things that 
has come out of this challenge for us is that we have been 
forced to look very introspectively at the way we conduct our 
business and find efficiencies.
    However, there is an upper limit to how efficiently we can 
get. I do not think we are there yet, but I do think we have 
gotten most of the efficiencies squeezed out of our operations 
and maintenance procedures.
    On the construction side, the headquarters has initiated a 
couple of different initiatives to look at increased project 
management and focus on what we are calling mega projects, like 
Olmsted, using the hurricane storm damage risk reductions 
system program as a model, and then applying that for mega 
projects in the future, but this is just something we are 
starting.
    Mr. Bishop. But if the Corps budget is, in fact, cut by 
$200 million, will you be able to get the same amount of work 
done or will there be at least some slippage from what you 
would normally do?
    General Peabody. Not in a year's time. That is for sure. 
Some of that would have to be absorbed through doing less.
    Mr. Bishop. OK. Last question. Ms. Meira, there was a 
comment about the stimulus. There was about $400 million worth 
of stimulus money that went to the Corps for inland waterway 
systems. My understanding is the Columbia-Snake River System 
got about $30 million of that; is that right?
    Ms. Meira. That is correct.
    Mr. Bishop. And had that money not been made available 
through the stimulus, are you able to project when the 
remediation of the problems on the Snake River would have taken 
place? I mean, would it have happened a year later, 2 years 
later, 5 years later? What is your projection on that?
    Ms. Meira. Sure. Thank you, sir.
    Until the stimulus package came along, the plan that had 
been developed with the Portland and Walla Walla Districts was 
to cobble together enough O&M funding because these were 
repairs, not major rehabs or construction. It was to have 
enough money in hand to have an extended closure and install 
one gate, and then wait 4 or 5 or however many years, have 
another closure, another impact to the system, install another 
gate.
    Mr. Bishop. So the stimulus really did have a very 
beneficial impact at least with respect to that system.
    Ms. Meira. For us it did. We had three gates and one 
coordinated closure.
    Mr. Bishop. And it is reasonable for me to assume that this 
$30 million employed a handful of people? Is that fair to 
assume?
    Ms. Meira. I do not have the jobs numbers offhand, but 
certainly more than a handful, sir.
    Mr. Bishop. Thank you for that.
    I yield back.
    Mr. Gibbs. Thank you.
    Sorry for my indulgence. I had to go vote in another 
committee.
    I have got some questions here. I will start with General 
Peabody. We were talking about stimulus funding. Was there any 
stimulus money that was going to capital projects, projects 
that had been funded, and are they sitting? Were they fully 
funded? Do we have any projects that are in limbo now because 
of the stimulus funding?
    General Peabody. Sir, the way we were able to do that was 
project features or components were able to be advanced. So, 
for example, I believe an approach wall in one of the monoliths 
at Kentucky Lock was advanced. That was about, I think, $80 
million. I think it was $87 million that went into Lower 
Monongahela. I think it was $40 or $50 million that went----
    Mr. Gibbs. But specifically the Kentucky Lock, what is the 
status of the Kentucky Lock?
    General Peabody. Of which one, sir?
    Mr. Gibbs. Kentucky Lock.
    General Peabody. Sir, that one is still under construction. 
There are two major features that are being executed now. One 
is basically being wrapped up. The other one will be wrapped up 
next year, and moving forward on that project will depend on 
availability of revenue and/or decisions about the allocation 
of that revenue associated with the Trust Fund.
    Mr. Gibbs. So when those two features are complete, will 
the project be complete or is that just----
    General Peabody. No, sir. It is just those features. The 
project still has I think it is somewhere like $300 or $400 
million worth of cost----
    Mr. Gibbs. So even with the stimulus, the culture of 
dribbling money here and there remains pretty much constant.
    General Peabody. The stimulus in general, in terms of the 
lock and dam systems, advanced our construction projects at 
several of those locations. In some locations it completed it. 
An example is the Emsworth Lock and Dam on the Upper Ohio. That 
one had some dam safety scour issues, and we were able to 
complete those scour remediation. I think the Lock and Dam 25 
on the Upper Mississippi, the same thing.
    Mr. Gibbs. OK.
    General Peabody. But those are relatively small amounts.
    Mr. Gibbs. Small amounts, OK.
    General Peabody. $10 to $20 million.
    Mr. Gibbs. Thank you for that.
    Mr. Hettel, I was intrigued a little bit when you said 
there are some issues with some of the newer locks that have 
been refurbished or constructed, the functioning or not. Can 
you expand on that a little bit?
    That just kind of intrigues me. I want to know if there is 
an issue.
    Mr. Hettel. I think actually Mr. Knoy brought that up, but 
at R.C. Byrd Lock, and the General can probably elaborate more 
than me.
    Mr. Gibbs. Oh, I am sorry. It was Mr. Knoy.
    Mr. Hettel. They found some coin blunt problems or 
something that they have to go into. We have got two 90-day 
outages scheduled for R.C. Byrd main chamber and auxiliary 
chamber, and I believe that was found through what they found 
up at Greenup when that outage happened.
    The general could probably explain.
    Mr. Gibbs. Mr. Knoy, it was you who made that statement. I 
am sorry.
    Mr. Knoy. Yes. I responded to that earlier in your absence. 
I do not know what the differences are, but I question whether 
or not new technology is actually advancing our capabilities 
verse the older technology that has been proven. I think an 
example there is the miter gate. Throughout most of the 
systems, our locks in the systems work and function very well.
    We have put in some different ways that we hang and operate 
those miter gates, going forward that seem to be less reliable 
and also the type of gates themselves. And the spare gates, I 
find it interesting that we have spare gates for Olmsted, which 
the lock has never been used and will not be used for another 
10 or 12 years, but we do not have spare gates for locks that 
have heavier traffic.
    So I do not know why the new technology is not lasting 
longer.
    Mr. Gibbs. I want to go to Mr. Steenhoek for just a second. 
He referenced what was happening in Panama and other areas, and 
obviously in the green site especially, soybeans are in 
competition with Brazil.
    Can you maybe expand just a little bit about the 
investments that are being made there and how they are doing 
things a little different and why we seem to become 
uncompetitive?
    Mr. Steenhoek. Yes, in Panama, the Panama Canal expansion 
project.
    Mr. Gibbs. Yes.
    Mr. Steenhoek. Well, absolutely, and I think it is 
important to note that one of the major talking points from the 
inland waterway users is the age of our lock and M inventory, 
60-, 70-plus years, and while that, indeed, is true and 
possibly could be troubling, I think it is important to 
remember that the Panama Canal was originally constructed in 
1914, and when you go and tour that and you watch, and you can 
get a very good vantage point of seeing ships go through these 
locks, you do not see the leaky miter gates. You do not see the 
crumbling infrastructure. You do not see concrete cracking.
    And so one of the big take-aways that I and the farmer 
board members that I took with me from that trip was 
maintenance and preservation goes a long way when you look at 
these types of infrastructure investments. Locks and dams are 
not cell phones--what you bought 10 years ago is obsolete 
today. The technology is very similar to how it has been, and 
so it has remained quite steady.
    But I think the major conclusion that we had as far as why 
they are able to perform in a superior manner to us is how they 
actually provide the funding; that they have secured the 
funding. It is not provided lump sum upfront, but they have 
certainty of funding, and some of it is going to be cash flowed 
from their toll structure, but they know that the money will be 
there so that when they work with contractors, contractors can 
make massive purchases of concrete steel, secure labor force, 
secure dredging equipment, excavating equipment.
    And consider the fact that this is a $5.25 billion project 
that is exponentially more complex than anything we have going 
on in our inland waterway system. They are building six new 
locks for post-Panamax vessels. They are widening the breach in 
the Continental Divide. They are expanding the volume of a lake 
to be able to service these new locks, but yet they are able to 
do it relatively on time and under budget, and I think the main 
reason for that is how they allocate the money is just as 
important as how much money is allocated.
    Mr. Gibbs. I am glad you expounded on that because I think 
that is important.
    A question, I guess, for all of the panelists and anybody 
can answer or choose not to answer it, but obviously budgets 
are tight and there has been declining funding, but there seems 
to be prioritized by whomever--I will not mention, I guess--to 
fund eco restoration systems. I am not against that, but when I 
look at the Corps' budget and we have gone through this, there 
is a lot more funding for that than for the assets, for our 
locks, levees and dams.
    And I would argue that, you know, a strong, growing economy 
will provide resources to enhance the environment, and I think 
we all agree we are at risk of this major mode of 
transportation system at failure, and so does anybody want to 
respond?
    Yes, Mr. Knoy.
    Mr. Knoy. I would like to make a couple of comments in that 
regard, Mr. Chairman. I think part of what we tried to 
establish in the capital development plan was an equal sharing 
of the burden of the cost among all of the beneficiaries, and 
as of this date the tow boat and barge industry is the only 
industry that is paying a user fee of any of the beneficiaries 
of the system, and certainly the ecosystem benefits greatly 
from that system as well.
    Mr. Gibbs. But you are aware that there is more funding 
from the tax dollars from the administration for the budget 
proposal, quite a bit more, for eco restoration funding.
    Mr. Knoy. Yes, sir.
    Mr. Gibbs. Does anybody else want to respond?
    [No response.]
    Mr. Gibbs. OK. I will move on.
    The next question I had was I mentioned a little bit in my 
opening statement about looking at a new paradigm of public-
private partnerships. Does anybody want to comment on the 
potential for that?
    One thing, I am working on a bill on the water-sewer side 
to try to bring in private equity capital, which I think there 
is lots of money out there. I will just give you an example. On 
a sewage treatment plant, obviously rate payers cannot pay 
upfront, and there is a lot of investment types that need a 
decent return with not too high a tolerance for equity erosion 
risk.
    So we are trying to put something together that we think we 
can match something up there for a public-private partnership, 
and I think that maybe on the inland waterways system maybe we 
could consider a pilot project, and the Corps might be looking 
at something like this where you have got a specific project or 
a region in a tributary or whatever. And my thinking is if you 
have a public-private partnership, you would get that, for lack 
of a better word, accountability for funding and pick up some 
efficiencies.
    So I would like to see if anybody would like to respond to 
kind of that concept or be open to that concept to try to bring 
in some private investment capital and then hopefully make the 
whole process more efficient because they would be a partner in 
it, and obviously they would have more say so than maybe what 
we have at the Inland Water Board and the stakeholders.
    Does anybody want to? Mr. Knoy.
    Mr. Knoy. I would be happy to comment again, sir. The 
inland river industry, we have met as a team. We have met with 
private funding sources. We have put forward a variety of 
different plans, just like we have the capital development 
plan, and we have heard that the administration is going to put 
forward an alternative funding plan as well, but all we keep 
hearing is they are going to, they are going to, and we are not 
getting any feedback or definition.
    Mr. Gibbs. Well, I do not believe there have been any 
specifics on the administration's plan.
    Mr. Knoy. Correct, not how to charge it, not how to collect 
it, what it would be, dollar amounts, et cetera.
    Mr. Gibbs. Yes, Mr. Steenhoek.
    Mr. Steenhoek. Well, I think you are on target in exploring 
this option, Mr. Chairman. I think, you know, engaging the 
private sector could present the possibility of getting funding 
for these projects in more of a lump sum fashion so that it 
could mitigate the opportunity for further cost overruns for 
some of these projects.
    The concern that we have though is the overall cost of 
these projects in the first place. You know, I try to put 
myself in the shoes of a rating agency, the Fitches or the 
Moodies of this world, and when they rate an investment as to 
whether or not it is investment grade or junk grade, they are 
looking at three things. They are looking at the size of the 
debt issuance, the volume of the money to apply to it, and the 
predictability of that funding.
    And the concern that we have is, OK, if you get private 
money into the system, and there are foreign entities that are 
actually interested in this as well. We had a group of farmers 
that went to China just a couple of weeks ago, and one of the 
repeated refrains from our customers in China was, ``We are 
concerned about the integrity of your supply chain.''
    And there is an expressed willingness to actually help 
finance U.S. infrastructure projects. Now, that is a whole 
different subject for another time, but there is this desire to 
apply money, but there is this concern about the cost of these 
overall projects. It is one thing to say we invite alternative 
sources of funding, but the problem still is these costs are so 
expensive, and the question is what is there payment plan for 
those projects for whether or not it is going to be an 
attractive investment.
    Mr. Gibbs. Yes. Yes, Mr. Dolence.
    Mr. Dolence. I think that we would all be remiss to not 
consider private investment. We talked earlier of efficiencies 
in the system and to introduce the free market and competition 
is one of the best ways to do that in my experience, and not 
only should you look for repayment from users, but the 
beneficiaries.
    A lot of people spoke here today and talked about what the 
river traffic take off of the rails and takes off of the 
highways, and is there room for a quid pro quo there?
    If you talk to the average person at least in the 
Pittsburgh area where I live, they complain about traffic and 
then they complain about trucks. Then they complain about truck 
traffic. So if the locks and dams fail, we are going to 
exacerbate that problem.
    So who are the beneficiaries of the recapitalization?
    Mr. Gibbs. Yes, General.
    General Peabody. Sir, just a quick comment. I cannot speak 
to the overall administration proposal or where that is, but I 
know that the Headquarters and, I believe, the Secretary's 
Office, has begun what I would characterize as exploratory 
discussions with Department of Transportation, I think other 
Federal agencies, and some private venture capitalist interests 
to look at the possibility of this exact issue.
    I believe this would likely take some authority, you know, 
changes, but it is something that the Corps has actively begun 
looking at.
    Mr. Gibbs. One just quickly. I do not know if Mr. Bishop 
has any more questions or not, but I want to just mention also 
we saw over the years the railroad industry abandon a lot of 
lines, tear up a lot of lines, and it seems to me I am 
concerned. I know the Corps has to make some tough decisions 
prioritizing, you know, and it might affect some of the 
tributary systems.
    Does anybody care to comment if we kind of let the 
tributary system decline? Would that be analogous to what is 
happening in some of the railroad industry, you know, feeder 
lines that are feeding the system, and the importance of maybe 
that is a problem?
    Do you want to comment on that? Mr. Dolence.
    Mr. Dolence. Again, in the Western Pennsylvania area, I 
would suspect that there are a lot of people who gave up their 
right-of-ways on their rail lines which have developed into 
beautiful rails to trails, if you will. With the development of 
the Marcellus Shale, I am sure there are a lot of people who 
are second guessing that decision 20, 30, 40 years ago of 
giving up those right-of-ways because now they have the 
challenges of a lot of truck traffic on back rural roads where 
you look down over the hill, and there is a beautiful rail to 
trail.
    I use the rail to trails. I like them, but it is just 
anecdotal in response to your question.
    Mr. Gibbs. Yes.
    Mr. Knoy. Sir, it is a trunk and branch system, if you 
will. We do need the ancillary rivers, the tributaries to feed 
the trunk, and a lot of the funding comes off the Lower 
Mississippi River which does not have the lock and dam 
infrastructure. So we do need it to work as a system.
    Could we manage it more efficiently? Likely so.
    Mr. Gibbs. OK. Go ahead.
    Mr. Bishop. Two things quickly. Thank you, Mr. Chairman.
    I just want to return, Ms. Meira, just to the issue of the 
stimulus funding that funded the Columbia-Snake River Project. 
The fact that you were able to get it all done at once, was the 
total project cost less being able to get it all done at once 
as opposed to extending it out over the multiyear period, 
phasing it in that had been your original plan absent the 
stimulus money?
    Ms. Meira. I think our Corps districts would agree that the 
answer to that is yes. To try to do it in a phased fashion 
would have cost much more over the years, and even worse, to 
wait for a catastrophic failure and to have that 1 year amount 
of time that it would have taken to on an emergency basis 
construct a new lock gate would have been exponentially more 
expensive than what they spent back in 2009, 2010, and 2011.
    Mr. Bishop. OK. Thank you.
    The last thing, the chairman talked about a bill that he is 
working on for waste water infrastructure that would take what 
we refer to as a WIFIA approach, direct lending guaranteed by 
the Government, very low rates to municipalities.
    I also am working on a bill that takes a similar approach. 
We have something that we call TIFIA in the surface 
transportation bill, again, direct lending to municipality, 
very low rates backed by proceeds from the motor fuels tax.
    Is this something in the environment we are now in where we 
clearly have a constrained budget? We clearly have limited 
capacity to make the kind of investment that I think we all 
agree is required? Is this something that we should be looking 
at?
    We obviously would have to figure out a receiving entity, I 
mean, because right now 100 percent of the system is owned and 
operated by the Federal Government. So the Federal Government 
would not be loaning to itself. It would have to be loaning 
to--I do not know--the Ohio River Authority or something like 
that.
    Should we be thinking seriously about that kind of approach 
as, again, part of this toolbox approach, multi-avenues of 
bringing dollars to the table that would help solve our 
problem?
    Mr. Steenhoek.
    Mr. Steenhoek. Well, I commend you, Ranking Member, for 
considering that and bringing new funding into the stream. My 
concern is, and I have mentioned this before, that we have to 
be careful that we are not trying to buy a $2 million home on a 
$20,000 salary.
    Mr. Bishop. That did not work out for a lot of people.
    Mr. Steenhoek. Right, right. And you could make sure that 
that $20,000 salary has a lot of certainty to it and 
predictability to it, but you cannot just solve this problem on 
the revenue side. You have to also address it on the cost side 
as well.
    And so you have to ask the question: how can we bring 
greater equilibrium between the costs of these projects and the 
revenue to support them? And so looking at some of these things 
about preserving maintenance, you know, prioritizing that, I 
think that really needs to be a part of that discussion as 
well.
    Mr. Bishop. Fair enough. Anyone else?
    [No response.]
    Mr. Bishop. OK. Thank you, Mr. Chairman. I yield back.
    Mr. Gibbs. I have just got another question. I know we have 
had a lot of discussion about the competitiveness, for global 
competition and moving our products in and out, but I want to 
go back to Mr. Hettel's testimony, and since they run a 
significant barge operation, American Electric Power, on the 
Ohio-Mississippi River systems, in your testimony you talked 
about how many millions of dollars ADP has lost in delays, and 
that is a big problem. We all know that.
    And you talked about also the potential of a complete 
failure and rolling brownouts, even blackouts. Can you maybe 
expound a little bit on the likelihood, and I may give General 
Peabody a chance to respond, too, of having--my understanding 
is on the Ohio River, there are no locks that do not have an 
alternative. Now, on the Lower Mon that is not true. On the 
Upper Mississippi or Illinois, I guess, it is not true.
    But since you guys navigate the Ohio River a lot, is there 
a possibility we could have a complete lock failure at one of 
the locks that would shut down the system?
    And if that were the case, and this might be where General 
Peabody might help, what kind of timeframe would we be looking 
at if we had a complete shutdown on the river?
    Mr. Hettel. Well, just to clarify, there are multiple locks 
on the Ohio River, a 1,200-foot chamber and a 600-foot chamber. 
All of the delay cost I referenced was having the 1,200-foot 
chamber closed for repairs, just to clarify that, and having to 
use the auxiliary chamber because then the system has too much 
volume to be able to handle it through a 600-foot chamber.
    One of my attachments in my statement, testimony, shows the 
predictability that the Corps has put together for lock 
failure, and that is why I specifically mentioned Willow 
Island. The Corps predicts that both the main and the auxiliary 
chamber will fail in 2015.
    Now, that may fail, the main chamber, the first part of the 
year, the auxiliary chamber the second part of the year, but if 
the main chamber goes down first and you put that much traffic 
through the auxiliary chamber, I am afraid we will have the 
same thing we had at Hannibal where they shut down the main 
chamber and then the auxiliary chamber failed afterwards.
    Mr. Gibbs. General Peabody.
    General Peabody. Sir, I believe in Lower Mon there is 
actually auxiliary chambers at the first four or five of the 
lower locks. I would have to get the details for you.
    But Mr. Hettel is correct in that there is high risk at 
several of the points along the system. Now, the two points as 
I mentioned earlier that I personally am most concerned about 
in the Ohio system are the Lower Monongahela and the Lower Ohio 
where I believe all the indicators we have are that the 
possibility of failure is real.
    And it is very difficult to put a probability to that. It 
is probably in the low single digit percentage year over year, 
but when you accumulate that over time, those probabilities 
escalate and become fairly significant.
    The 2011 flood that happened last year is a very low 
probability event, but it happened. The Nashville flood of 2010 
resulted from a rain event that is something on the order of 1 
to 10,000-year event, but it happened.
    So these failure possibilities, any time that there is a 
possibility, it is too much of a concern for me.
    Mr. Gibbs. General, I am interested in a lock failure. What 
would be the typical failure of a lock failure? Is it the miter 
gates not functioning or is the concrete walls or what?
    General Peabody. There is a host of causes. Most of them 
that cause outages in the locks have to do with operating 
machinery associated with the miter gates, and they are not all 
miter gates, but most of them are miter gates. So that is the 
most common issue.
    However, we have been detecting what I would characterize 
as previously unknown failure modes recently. So, for example, 
when Markland went out in 2010, what happened, it was a 
cascading series of events, as these often are. It was a simple 
failure of the solenoid with the inflow chamber in the open 
position. So when the operator did not know that it had failed, 
he thought he had shut it off, but it was still water flowing 
in. He tried to close the gates. That created a water head 
difference. That led to pressure that caused the gates to fail, 
fall in the river; the chamber closed for, I think, 150-some 
days.
    So there are a variety of issues. This gets to an important 
issue though. Our knowledge is imperfect when it comes to 
understanding potential failure modes or design deficiencies, 
and so as we go forward in time operating these designed 
infrastructures, we discover things that we did not previously 
know, and this is a constant of the engineering profession.
    Understanding new failure modes, understanding design 
changes, and we constantly have to update our profession and 
make changes in this, what I characterize as progressive 
elaboration. That is part of the problem.
    With regard to whether we have greater lock outages or 
greater issues on new locks, I would have to check on the data 
on that. I am not aware what the data says.
    Mr. Gibbs. I think we are done with questions. We are all 
done. Everybody else has abandoned us.
    I would like to conclude. First of all, I want to thank 
everybody for coming. I think we are trying to highlight the 
issue here of how important our maritime system is in the 
inland and the ports and how much commerce. I know the 
President had talked about wanting to double exports in 5 years 
or whatever it was, and I think the only way is you have got to 
have a transportation system to move all of that out to do it, 
and I think we certainly do not want to have an event where the 
American people wake up because we had an event like the levy 
failure in Hurricane Katrina. We do not want to have the system 
shut down because that will impact a lot of people's lives 
because of energy production, energy generation. That could be 
severely affected and all of the jobs in that entire major 
region of the country.
    So thank you for coming, and we will work ahead and keep 
working on this, but thank you, and that concludes this 
hearing.
    [Whereupon, at 12:10 p.m., the subcommittee was adjourned.]

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
